<html>
<title> - ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
 ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                        THURSDAY, MARCH 10, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Allard, Reid, and Murray.

                          DEPARTMENT OF ENERGY

                   Office of Environmental Management

STATEMENT OF PAUL M. GOLAN, PRINCIPAL DEPUTY ASSISTANT 
            SECRETARY FOR ENVIRONMENTAL MANAGEMENT


             opening statement of senator pete v. domenici


    Senator Domenici. The hearing will please come to order. I 
understand that Senator Reid and Senator Murray may attend, but 
Senator Reid, ranking member, as usual has been very 
accommodating. Because of his busy schedule he has suggested 
that we start and he will arrive shortly. I think it's--the 
scheduled time has arrived.
    So good morning everyone. Today the subcommittee is going 
to take testimony on the fiscal year 2006 budget request for 
the Office of Environmental Management and the Office of 
Civilian Radioactive Waste Management. We're joined by Paul--do 
you say Golan?
    Mr. Golan. Yes, sir.
    Senator Domenici. Principal Deputy Assistant Secretary for 
Environmental Management. You have some big shoes to fill. Your 
predecessor was a very----
    Mr. Golan. Yes, I do.
    Senator Domenici [continuing]. Excellent person. And Ted 
Garrish, Deputy Director for the Office of Civilian Radioactive 
Waste Management. Essentially that's a nice name for the Yucca 
Mountain project. That's an easy job.
    Mr. Garrish. Yes, sir.
    Senator Domenici. I don't know how--well, I'm looking at 
you now, so we can see what you look like in 3 or 4 years.
    Mr. Garrish. Much grayer.
    Senator Domenici. I understand that both of you are serving 
as acting replacements for Jessie Roberson and Dr. Chu. Both 
women were exceptional administrators and I enjoyed working 
with both of them. Obviously everyone knows that Dr. Chu was 
from New Mexico, from one of our great laboratories. While she 
was a very small person, she carried a very big stick. She was 
a very powerful person with a very, very fine intellect, and we 
appreciated her wonderful work.
    I do appreciate your participation here today. This year's 
presidential budget requests $6.5 billion for environmental 
clean-up activities. This is a reduction from $7.4 billion that 
we appropriated last year, which was in turn the highest level 
we had provided in the history of the clean-up program.
    Over the past 4 years, the Department succeeded in reducing 
the total cost of the environmental clean-up--I didn't see you, 
Senator. Good morning.
    Senator Murray. Good morning, Senator.
    Senator Domenici. Of environmental clean-up by $50 
billion--that is the expected cost--and shortening the 
estimated time table imagined by 35 years. Now you'll have to 
tell us how much that leaves. We shortened it by 35 years, but 
it's still a long time left.
    By focusing on risk-based clean-up as a strategy and 
accelerated clean-up agreements with States, the Department 
contends--there it is--they'll finish by 2035. By the end of 
2006, DOE will complete an additional 10 facilities, including 
Rocky Flats in Colorado. This will bring the total of sites 
that have been cleaned up to 89 of the 114 sites.
    The President's budget has proposed shifting clean-up 
responsibilities from the Office of Environmental Management to 
the NNSA at six sites. The budget claims that operational 
efficiencies can be achieved by eliminating the dual chain of 
management between DOE and NNSA. While I agree with the goal of 
the increased efficiency, I'm not totally convinced and have 
some concerns about NNSA. They may not be able to do this and 
they may have so much to do they might not be up to the 
challenge. They have many responsibilities, including the 
maintaining of our nuclear deterrent and combating 
proliferation of nuclear materials. So it remains to be seen as 
to whether that change in the management scheme would be 
acceptable up here, at least for this committee.
    The President's budget requests $651 million for Yucca 
Mountain to be funded from the civilian nuclear waste fund and 
defense nuclear waste account. This is up 14 percent from $572 
million, and while it's not as much as could be used, it is 
indeed a very good change in that it is funded in a way that 
will not charge this account against the appropriated account, 
which made it very difficult in the past, because the President 
would not charge it--would not charge it to the accounts of the 
appropriation, and we were compelled to by our rules. So that's 
been fixed and we appreciate OMB doing that.
    The President did not include the reclassification of the 
fee paid into nuclear waste fund as we proposed last year. 
However, the President did suggest as a matter of fairness that 
the annual fee collections be consistent with the level of 
appropriations, as I just indicated, and that makes sense.
    While this funding debate was underway, the State of 
Nevada--and the Senator from the State of Nevada has just 
arrived--one lawsuit effectively vacating the radiation 
standard, as proposed by the Environmental Protection Agency. 
The Yucca Mountain project is facing some critical legal and 
political challenges, and the landscape we face today is a very 
difficult one. In addition to tight budgets, the Department has 
slipped the submittal of a license application by another year.
    Also, the administration is working to address the court of 
appeals' ruling that has discussed a radiation standard of 
10,000 years. Now the EPA must promulgate new standards and go 
through whatever legal hoops are involved in that.
    Last week in a separate hearing, the Energy and Natural 
Resources Committee when we had the new Secretary here, I asked 
him to provide a status report on Yucca Mountain that will give 
us an update on all the various issues, licensing, safety 
assessments, technical challenge, transportation needs. I hope 
the Department is working on this project. If not, to the 
extent that you can serve as a reminder for that, I ask that 
you do that for the committee.
    Now I note that the distinguished minority leader has 
arrived, and I'm going to yield to him. I'd like to remind the 
witnesses that your statements are going to be made a part of 
the record now, so I don't think you have to give them in 
detail. We'd like you to abbreviate them. With that, Senator 
Reid.


                    statement of senator harry reid


    Senator Reid. Mr. Chairman, thank you very much. I'm 
grateful to you for holding these hearings, especially in light 
of the fact that we have the most important bill--resolutions 
before the Budget Committee, and you having been chairman of 
that for so many years. I want to extend my appreciation to 
Patty Murray for filling in for me today for this hearing. She 
is a stalwart member of the Appropriations Committee and I am 
grateful for her helping on this issue today.
    Last year was really a bad year for Yucca Mountain. On July 
9, 2004, the Circuit Court of Appeals ruled with the State of 
Nevada about radiation standards. A month later, the NRC's 
Atomic Safety and Licensing Board rejected DOE's Yucca Mountain 
document database, saying it failed to make public many of the 
documents it had in its possession. October 4, last year, DOE 
Inspector General found DOE gave away more than half a million 
dollars worth of Yucca Mountain construction equipment. On 
November 22, the Nuclear Waste Technical Review Board said DOE 
does not have a plan for safely transporting nuclear waste. 
Just in February, Margaret Chu, the former director, said that 
she was going to delay the application which would probably 
take until 2006 before the application would be considered by 
the Nuclear Regulatory Commission.
    There are just so many other things I want to say that in 
spite of the fact that a lot of people think that Senator 
Domenici and I are constantly at each other's throat on this 
issue, we have, I think, constructively worked over the years 
to do what legislators are supposed to do, and that is work 
toward compromise. We've done that. I appreciate his attention 
to this matter each year and look forward to working with him.
    And the most important part of all of this is going to be 
when we finish our bill, what happens with the House of 
Representatives, not only on this issue, but all issues. We've 
developed a tremendously difficult situation with the House and 
I hope we can resolve it better than we did last year.
    Thank you, Mr. Chairman. If you would excuse me, I'd 
appreciate it.
    Senator Domenici. Yes. Thank you very much. Senator from 
Colorado, would you like to make a comment?
    Senator Allard. I would, Mr. Chairman, if I might.
    Senator Domenici. Please.


                   statement of senator wayne allard


    Senator Allard. First of all, this is the first time I've 
had an opportunity to attend this subcommittee meeting. I just 
want to tell you how much I appreciate being on the 
Appropriations Committee and particularly being on this 
subcommittee. I look forward to working with members of this 
subcommittee.
    I just want to--I do have a total statement I'd like to 
make a part of the record--but I'd just like to call to the 
attention of the committee that we do have a success story that 
is happening in the State of Colorado with Rocky Flats. 
Originally some 10 years ago, we were looking at cost estimates 
of over 70 years and $35 billion. With some extra expenditure 
up front, we figured we could save a lot of money over time, 
and we have. And on top of that, we are now a year ahead of 
schedule from what I understand, and that we're going to save 
close to a billion dollars.
    And this is a cost savings--this is a--due to incentive-
driven contracts, where you pay bonuses for performance, and 
this is reflected, I think we've saved taxpayers a lot of 
dollars. You'll probably hear more about it, Mr. Chairman, and 
I look forward to continuing to work with this committee on 
issues that are important.


                           prepared statement


    Thank you very much to the country. Thank you. Mr. 
Chairman, I'm going to be gone too, because as you know, I 
serve with you on Budget Committee and I've got to be there for 
some amendments, so if I could be excused, I would appreciate 
it.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Thank you, Mr. Chairman, for holding this important hearing. Over 
the last 4 years, the Department of Energy's Environmental Management 
program has made enormous progress. Under the leadership of former 
Under Secretary Bob Card, former Assistant Secretary Jesse Roberson and 
now Acting Assistant Secretary Paul Golan, EM has taken several steps 
forward. Today, in Colorado, we have seen the fruits of their labor and 
we thank them for their efforts.
    Mr. Chairman, 10 years ago, most doubted that Rocky Flats could be 
cleaned up in 6 years and for under $7 billion. In fact, most thought 
the clean-up would take 70 years and cost as much as $35 billion. The 
task of cleaning up Rocky Flats was considerable. Over 800 facilities 
and structures had to be torn down, including building 771, which was 
labeled the ``Most dangerous building in America'' because of the level 
of contamination present. Indeed, much of the 385-acre industrial area 
needed to be decontaminated and treated. The special nuclear material 
also needed to be shipped off site and the orphan waste needed to be 
disposed of.
    Now, we are on the brink of a major success story. The Department 
of Energy announced just last week that clean-up was a year ahead of 
schedule and will save the taxpayers close to $1 billion. Few of the 
buildings remain and most of the decontamination effort has been 
completed.
    I believe the success we have seen at Rocky Flats is a result of 
combined effort by the Department of Energy, the local governments, the 
State of Colorado, the Colorado delegation, and with committees like 
this one. Because of team work and cooperation we have enjoyed at the 
local, State, and Federal levels, the people of Colorado will shortly 
be able to live without the fear of nuclear contamination. It is my 
hope that in a few months I will be able to invite you, Mr. Chairman, 
and other members to this committee to join me at a ceremony this fall 
celebrating the completion of the clean-up at Rocky Flats.
    Thank you, Mr. Chairman for the opportunity to share a few words 
about Rocky Flats. I look forward to the testimony of our witnesses.

    Senator Domenici. I will be there shortly.
    Senator Allard. Okay. Very good.
    Senator Domenici. I just wanted to say we welcome you, 
Senator, and we know that you have a genuine interest, not only 
in the issue you just described, but in your State you have a 
very powerful facility with reference to renewable energy.
    Senator Allard. Yes, that's true.
    Senator Domenici. And we have funded it regularly and we 
look forward to you participating in the oversight, because it 
is a formidable operation. And in all other respects we welcome 
you, because you will be a dedicated member.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman. You 
know, I say it every year, but again I want to thank you and I 
want to thank Senator Reid for your leadership on this 
subcommittee. This jurisdiction of this subcommittee really 
touches on so many critical issues in my State, the Corps of 
Engineers, Bureau of Reclamation, Pacific Northwest National 
Lab, and most prominent today is the Hanford nuclear 
reservation. So I really appreciate the time and consideration 
you and Senator Reid and the entire subcommittee staff give to 
matters that affect my State.
    I know we all have to get to the Budget Committee that's 
doing the markup, we've got votes on the floor, so I'll be 
brief. But I first want to thank Senator Reid for being here. 
He had to leave as we all know, but I know he and a number of 
other Senators had statements and questions they wanted 
submitted, so I'd just ask unanimous consent that those can be 
submitted for the record and answered in a convenient time 
frame.

                     HANFORD CLEAN-UP FUNDING CUTS

    Mr. Chairman, I do want to make some comments about the 
budget for Hanford and for the Environmental Management 
Program. By my calculation, the Defense Environmental Program 
has been reduced by $548 million, and Hanford alone will suffer 
54 percent of that cut. This massive funding cut is 
dramatically disproportionate to Hanford's share of the overall 
EM Program. And that fact, combined with the absolutely lack of 
sound rationale for the majority of Hanford budget cuts, can 
easily lead some of us to believe that the State was targeted 
by both DOE and OMB.
    This--I want to point out just one budgeting issue that 
makes no sense. The budget cuts the tank farm program by $89 
million on the basis of legal uncertainty caused by the 
reclassification issue. I'll move beyond the fact that DOE 
itself created that legal uncertainty, but the fact is that the 
tank farm activities going on this year can and should proceed 
in fiscal year 2006. There's absolutely no legal or technical 
reason that these activities have to end on September 30. So 
this budget is already undercutting a scope of work that has 
yet to be awarded.
    There are a lot of other examples of this budget's lack of 
integrity and intelligence when it comes to Hanford. I'll not 
spell them out. But, Mr. Chairman, let me end here with my hope 
that communication and agreement between Washington State and 
the Department of Energy is going to improve, and that hope is 
largely based upon the nominations of Clay Sell and David 
Garman. I really respect the work they did here in the Senate, 
their willingness to listen, and their forthright 
communication, and I hope their confirmations will help us move 
past the political and legal games and back to the strong 
partnership between Washington State and the Department of 
Energy.

                           PREPARED STATEMENT

    But regardless of improving relationships between the State 
and the Department of Energy, I want you to know I do not 
accept the Department's rationale for these cuts, and I will 
urge this subcommittee to maintain the Federal Government's 
moral and legal obligation to Washington State and the Hanford 
communities.
    Thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Thank you, Mr. Chairman.
    I say it every year, but I again want to thank you and Senator Reid 
for your leadership on this subcommittee.
    The jurisdiction of the subcommittee touches on so much that is 
critical to my State including the Corps of Engineers, the Bureau of 
Reclamation, the Pacific Northwest National Laboratory, and--most 
prominent today--the Hanford Nuclear Reservation.
    I appreciate of the time and consideration you, Senator Reid, and 
the entire subcommittee staff give to matters affecting Washington 
State.
    Now, we both have to get to the Budget Committee that is beginning 
its mark up at this time, so I'll try to be brief.
    I first want to recognize that Senator Reid wished to be here, but 
Budget Committee and floor matters required his attention.
    I know Senator Reid, myself and others likely have statements and 
questions they would like to have been able to give in person, but will 
not be able to. I ask that Senators be given an appropriate amount of 
time to submit these for the record and response from the Department.
    Mr. Chairman, I'd like to make some comments about the budget for 
Hanford and the Environmental Management program.
    By my calculation, the Defense Environmental Management program has 
been reduced by $548 million. Hanford alone would suffer 54 percent of 
this cut.
    This massive funding cut is dramatically disproportionate to 
Hanford's share of the overall EM program.
    This fact, combined with the absolute lack of sound rationale for 
the majority of Hanford budget cuts, can easily lead one to believe 
Washington State was targeted by DOE and OMB.
    Let's just point out one budgeting issue that makes no sense.
    The budget cuts the tank farm program by $89 million on the basis 
of legal uncertainty caused by the reclassification issue. I will move 
beyond the fact that DOE itself created this legal uncertainty.
    The fact is that tank farm activities going on this year can and 
should proceed in fiscal year 2006. There is absolutely no legal or 
technical reason that these activities must suddenly end September 30.
    So, this budget is already undercutting a scope of work that has 
yet to be awarded.
    There are other examples of this budget's lack of integrity and 
intelligence when it comes to Hanford, but I will not spell them all 
out.
    Rather, Mr. Chairman, let me end with my hope that communication 
and agreement between Washington State and the Department of Energy 
will improve.
    This hope is largely based upon the nominations of Clay Sell and 
David Garman.
    I respect the work they did here in the Senate, their willingness 
to listen, and their forthright communication.
    I hope their confirmations will help us move past the political and 
legal games and back to a strong partnership between Washington State 
and the Department of Energy.
    But, regardless of improving relationships between the State and 
the Department of Energy, I do not accept the Department's rationale 
for these cuts and I will urge this subcommittee to maintain the 
Federal Government's moral and legal obligation to Washington State and 
the Hanford communities.

    Senator Domenici. Thank you very much, Senator. I assure 
you that we will do everything we can to make sure that 
whatever happens at Hanford is not the result of any kind of 
targeting. I'm not aware of that. I don't accept that as 
reality. We'll see as we work it through, but it's going to be 
treated fairly.
    I can say that as I alluded in my statement, the last 4 
years, whatever has been said about the administration, could 
always complain that the clean-up is not enough, this is the 
best 4 years of clean-up that we've ever had in terms of 
getting things done, in terms of achieving goals, in terms of 
saving money, and in terms of new ideas that will get the job 
done. And I think there's a lot--you weren't in charge, but a 
lot that you can be proud of. We want to make sure that 
continues for the next 4 years, and we're going to do our best 
to help with that.
    And we will proceed now in--let's go in the order that--
starting on my left with you, Mr. Golan.

                       STATEMENT OF PAUL M. GOLAN

    Mr. Golan. Thank you, Mr. Chairman, and members of the 
subcommittee. As this is my first time to appear before this 
committee, I'd like to thank you for the support you've given 
to the Department of Energy's clean-up program. This support 
has been crucial in turning this program around and 
revitalizing it, because it had lost track of its objectives in 
the 1990's.
    Over the last 4 years, our goal has been simple: transform 
this program from one that managed risks to one that reduces 
risk and cleans up the environment, a program that delivers 
real risk reduction, that's safe for the workers, protective of 
the environment, and respectful of the taxpayers.
    Over the last 4 years, we've gotten our sites to focus on 
this goal and these objectives, which in my written statement, 
Mr. Chairman, which I'd like to submit for the record, contains 
a full accounting of the accomplishment of the Environmental 
Management Program over the last 4 years, articulates a more 
complete list. I'd just like to highlight a few of those today 
as a precursor as we talk about 2006.
    At the Savannah River site, we've completed our nuclear 
stabilization missions. That's plutonium residues, plutonium 
metals, and plutonium oxides. We've consolidated all our 
special nuclear materials into two storage vaults. 
Additionally, we've consolidated all our spent nuclear fuel 
into a single spent fuel pool.
    Just last week we de-inventoried the FB line, once a major 
nuclear processing facility at Savannah River built in the 
1950's that helped fight and win the cold war.
    At Hanford, we removed all the spent nuclear fuel from the 
K-basins, and we're working diligently to get the sludge out 
today. All pumpable liquids have been removed from the single 
shelled tanks, dramatically reducing the risk to the Columbia 
River. Additionally, the nuclear materials stabilization 
missions, the plutonium and the plutonium residue missions have 
also been completed at the Hanford site.
    At Idaho, all the spent nuclear fuel has been either dry-
stored or put into our most robust storage basin. And right now 
we're actually removing water from the five older, less robust 
basins, dramatically reducing the risk to the Snake River 
aquifer. We've also taken down 300,000 square feet of old and 
decaying infrastructure at that facility, and just in the last 
15 months, reducing our fixed costs and allowing the Idaho 
National Laboratory to engage on its new mission.
    At Rocky Flats, as Senator Allard alluded to, we've just 
completed demolition of two major nuclear facilities: Building 
771, which in the 1990's was called the most dangerous facility 
in America, and building 707, which is the facility that 
manufactured all the pits in the nuclear weapons inventory 
today, have been completely demolished. In addition, just last 
week we commenced demolition of building 776, the site of the 
largest industrial and radiological accident at its time in 
1969 in the United States. Rocky Flats is on track to meet is 
closure goals.
    In Ohio, we've demolished all the former uranium processing 
facilities at the Fernald site, and we recently demolished the 
tritium processing facility at Mound.
    In the area of safeguards and security, or places where we 
store our special nuclear material, we've reduced by over half 
the number of protected areas this program has, eliminating 
potential security vulnerabilities as well as reducing the 
fixed costs, as these are some of the highest cost areas to 
maintain and keep secure.
    These are a sampling of our progress. We are committed to 
work diligently with all concerned parties to continue to 
reduce risk and remediate the environment.
    Now I'd like to turn this discussion to the 
administration's fiscal 2006 budget request for the 
Environmental Management clean-up program and how we plan to 
use the taxpayers' investment to continue to deliver risk 
reduction and environmental remediation.
    Future success of this program depends on key elements 
we've worked so hard over the last 4 years to put in place, 
such as continuing to improve worker safety, where our goal and 
my personal goal is to eliminate accidents and injuries from 
the workplace entirely. It depends on continuing to work with 
our local communities, tribal nations, regulators, and local 
representatives. It depends on continuing to challenge our 
contractors to work smarter and safer under the contract and 
continuing to bring competition to our work.
    Our future success depends on us rising to meet new 
challenges, and these are going to be demanding challenges, 
that include finding disposition pathways for waste that has no 
disposition pathway today. Our future success involves 
resolving important waste issues that we will work closely with 
our regulators in South Carolina and Idaho, as well as the 
Nuclear Regulatory Commission. Our future success depends on 
our ability to resolve seismic issues that we recently 
discovered at the waste treatment plant at our Hanford site 
where we design--where we're designing and constructing a 
facility to deal with the millions of gallons of waste that's 
at that site.
    Some may say that we have yet to tackle our most difficult 
issues. A program as large and complex as environmental 
management is not without issue, nor should anyone expect it to 
be. Our job is to find those problems and solve them. We have 
proven we can reduce risk and we've--and complete environmental 
remediation. We have projected that we can take decades off the 
time to complete the removing of the source term and hazards 
decades before anybody hoped or planned.
    We did not want to have this program take longer to 
complete than the actual cold war, which is the origin of our 
work. We need to maintain our sense of urgency to complete the 
work rather than put it off. We need to keep a clear and 
unambiguous vision of risk reduction and continuation of clean-
up. Our aim is for a site to be cleaned up so that the end 
state is protective of the environment while fully supportive 
of the future users of that site.
    Our clean-up approaches are based on good science, require 
full review and approval by State and local and Federal 
regulators. Our continuing work with our communities and 
stakeholders on a day-in and day-out basis is instrumental in 
addressing these concerns and is crucial for our success.
    In fiscal year 2006, for example, our $6.5 billion request 
includes funding such key activities as decommissioning the F 
Canyon at Savannah River, reducing a large fixed cost; removing 
the sludge from the K-basins at Hanford, reducing the risk to 
the nearby Columbia River; completing our clean-ups at Rocky 
Flats, Ashtabula, Mound, and Columbus; completing transuranic 
waste retrieval from Pit 4 at the Idaho National Laboratory; 
removing a source term over the Snake River aquifer; completing 
the clean-up of the Melton Valley project at the Oak Ridge 
reservation; mitigating a major source term that's in close 
proximity to the Clinch River; and continuing to eliminate our 
high-security protected areas, further reducing our fixed costs 
and vulnerabilities.
    Over the law few months, some aspects of our clean-up 
program became clearer and our path forward is better defined. 
Other aspects of our clean-up program have become less certain 
and our path forward has become less clear. I'd be more than 
happy to discuss these particular issues in my question and 
answer session today.

                           PREPARED STATEMENT

    We believe that will take a combined effort of all parties 
working together to resolve our challenges so we can continue 
to deliver risk reduction and clean-up for the community and 
for the taxpayer. I look forward to working with you and this 
committee and others to achieve this goal. Thank you, Mr. 
Chairman.
    [The statement follows:]
                  Prepared Statement of Paul M. Golan
    Mr. Chairman and members of the subcommittee, I take great pleasure 
today in discussing the fiscal year 2006 budget request for the 
Environmental Management (EM) program, our progress in implementing 
cleanup reform, and the importance of sustaining this momentum for the 
benefit of our workers, our communities, our environment, and the 
generations to come.
    In 2001, we embarked on a course to revitalize and reform a cleanup 
program that had lost track of its objectives. As a result of the 
reforms and Congressional investments of additional funds in the 
cleanup budget, the Department of Energy set forth to accelerate the 
reduction of risk and site cleanup completion in a manner that is safe 
for the worker, protective of the environment, and respectful to the 
taxpayer. To stay true to these principles and cleanup objectives, EM 
established business management, project management, and performance 
management systems, a new organizational structure, and acquisition 
strategies. The principles and cleanup objectives used as a basis for 
this transformation are now in place.
    This strategy to quickly reduce urgent risks to workers, 
communities and the environment was tied to our requests for funding 
increases in fiscal years 2003, 2004, and 2005. The fiscal year 2006 
budget request represents the next stage of our strategy. The 
principles and management systems have been tested and although there 
are and will continue to be very difficult obstacles, the program is 
continuing forward. The Department has addressed challenges as they 
arise and is positioned to move to the next stage of cleaning up the 
Cold War legacy.
    For fiscal year 2006, the President's Budget includes a request for 
$6.5 billion for the Department's cleanup program, a 7.8 percent 
reduction from our fiscal year 2005 comparable appropriation. We 
committed that if we could eliminate urgent risks and associated fixed 
costs, then starting in fiscal year 2006, we would request a declining 
level of funding to complete our work. The investment has paid off and 
we believe we are providing the return on the taxpayer's investment 
that the American people expect and deserve. Some may say incorrectly 
that we may be accomplishing less work or will need to slow the pace of 
cleanup by requesting a lower funding level. But the investments of 
2003 through 2005 have allowed us to lower the infrastructure costs, 
complete work, reduce high cost security areas, and pull work forward. 
Thus, we have reduced fixed costs, allowing a greater proportion of our 
funds to go to actual cleanup--a trend we will continue to improve 
upon.
    The EM portion of the fiscal year 2006 congressional budget 
structure is analogous to last year. The budget structure focuses on 
completion, accountability, and visibility; institutionalizes our 
values; and integrates performance and budget. Requested funding can 
clearly be associated with work that is planned and achievable in 2006.
    This budget request reflects a transfer of legacy environmental 
cleanup at most NNSA sites and management of newly generated waste at 
Lawrence Livermore National Laboratory and the Oak Ridge Y-12 plant to 
NNSA. The NNSA Act provides only the Secretary and Deputy Secretary of 
Energy, through the NNSA Administrator, the authority to direct or 
control officers', employees', and contractors' work. This creates a 
very cumbersome and inefficient management structure. Under the 
proposed transfer, EM would transfer the following activities to NNSA 
as follows:
  --Transfer legacy waste treatment, storage, disposal, and remediation 
        at 7 sites: Nevada Test Site; Sandia National Laboratory; 
        Separations Process Research Unit; Kansas City Plant; Lawrence 
        Livermore National Laboratory Main Site and Site 300; and 
        Pantex Plant to NNSA.
  --Transfer newly generated waste activities at 2 sites: Lawrence 
        Livermore National Laboratory and Oak Ridge Y-12 Plant to NNSA.
  --Transfer operation of the Nevada Test Site low-level waste disposal 
        site to NNSA.
    In addition, EM has completed active cleanup at the Laboratory for 
Energy-Related Health Research and is transferring the long-term 
response actions to the Office of Legacy Management (LM).
    This budget request includes funds for the new national 
Consolidated Business Center (CBC) in Cincinnati, Ohio. The CBC will be 
the central clearinghouse for a wide range of activities supporting 
small sites and near-term closure sites.
    The administration considers this budget request crucial to 
maintaining the successful trend of the past 3 years. Without your 
continued support, we could face higher risk to the environment and the 
public and lose the headway we have worked so hard to achieve. With 
your support, we will continue to produce measurable results that will 
last for years to come. We thank you for your trust and support, and 
plan on continuing to earn your trust in producing real risk reduction 
with future investments.
                       delivering on commitments
    A major priority is to eliminate accidents and injuries from the EM 
work. Our best performing sites are also our safest sites. EM is no 
different than any other industry; improved safety performance is a 
necessary precursor for improved operational performance. In order to 
accomplish our accelerated risk reduction and cleanup mission, we must 
improve safety performance first. Safety and results go hand in hand. 
Neither can be compromised if we are to reach our goals. We are 
committed to continue instilling this philosophy in every worker's day-
to-day decisions.
    In fiscal year 2004, EM has been able to:
  --Complete packaging all excess plutonium into a safe long-term 
        storage configuration. Performance is largely due to 
        accelerated schedules at Savannah River and Hanford.
  --Retrieve spent fuel from all aging water-filled pools and placing 
        it into dry storage or modern, more robust storage pools.
    Cumulatively, EM has accomplished the following (included are 
activities at the NNSA sites proposed for transfer):
  --3,228 containers of enriched uranium (out of 9,101 containers 
        required over the cleanup lifecycle) have been packaged and 
        certified for long-term storage, 173 containers ahead of the 
        accelerated schedule.
  --9,057 metric tons of depleted uranium (out of 742,149 metric tons 
        required over the cleanup lifecycle) have been packaged in a 
        suitable form for disposition. The complex is cumulatively 
        ahead of the accelerated schedule by 4,142 metric tons.
  --615,473 cubic meters of legacy mixed low-level waste (MLLW) and LLW 
        (out of 1,154,636 cubic meters required over the cleanup 
        lifecycle) have been disposed. The complex is ahead of the 
        accelerated schedule by 166,437 cubic meters because almost all 
        sites have accelerated their schedules.
  --Eliminate half of the Material Access Areas, highly secure and 
        costly special nuclear materials storage areas, a significant 
        reduction in fixed costs.
  --911 out of 2,647 industrial facilities have been completed. The 
        complex is cumulatively ahead of the accelerated schedule by 
        212 facilities.
  --5,486 release sites (out of 10,374 release sites required over the 
        cleanup lifecycle) have been completed. The complex is ahead of 
        schedule by 144 release sites. Hanford, Savannah River, and 
        Rocky Flats contributed greatly to the positive performance on 
        this goal.
    In addition, on a site specific level, we have:
  --Completed packaging all (2,090 metric tons) of Hanford K-Basins 
        spent nuclear fuel for final disposition and moved them well 
        away from the Columbia River for long-term storage;
  --Removed all pumpable liquids from the 149 single shell tanks at 
        Hanford;
  --Removed all spent nuclear fuel from three aging pools at the Idaho 
        National Laboratory;
  --Dispositioned 50 percent (124 out of 248) of the Oak Ridge 
        Reservation facilities which include 2 nuclear facilities, 6 
        radiological facilities, and 116 industrial facilities;
  --Removed all spent nuclear fuel from the West Valley Demonstration 
        Project site to safe and secure long term off-site storage;
  --Completed 35 percent of the Defense Waste Processing Facility 
        mission by producing 1,712 out of 5,060 high-level waste 
        canisters;
  --Disposed of more than 18,300 cubic meters of transuranic (TRU) 
        waste at the Waste Isolation Pilot Plant (WIPP), roughly 10 
        percent of the legislated 176,000 cubic meters capacity of 
        WIPP; and
  --Stayed on track to complete cleanup and closure of Rocky Flats, 
        Fernald, and Mound and four other sites in 2006.
    By completing these actions and reducing risks, the liability to 
the taxpayer is reduced and the environment for future generations will 
be safer.
                            challenges ahead
    Many of the acute hazards to communities and the environment have 
been substantially reduced. And although we can and should feel proud 
about what we have done, real challenges still lie in front of us. 
While our nuclear materials stabilization mission is by and large 
completed, the EM program is evolving into a more a radiological and 
industrial facilities deconstruction program. For example, at the 
Portsmouth Gaseous Diffusion Plant in Ohio, EM is transitioning from 
cold standby operations to decontamination and decommissioning, a step 
consistent with the development of the new United States Enrichment 
Corporation Gas Centrifuge facility at Portsmouth.
    In addition, we have uncertainties that challenge us such as end 
states for some sites, disposition paths for some wastes, and legal and 
regulatory issues. For example, the Department must:
  --Successfully implement the path forward provided by section 3116 to 
        disposition tank waste stored at Savannah River and Idaho, 
        working with the Nuclear Regulatory Commission and State 
        regulators;
  --Initiate major procurement activities at Hanford and Savannah River 
        in fiscal year 2006 to align cleanup work scope for these sites 
        with our contracts, thereby bringing an even greater portion of 
        the Department's cleanup work under contracts that better drive 
        performance;
  --Establish a disposition pathway for silos residues from the Fernald 
        site, to allow that site to close in 2006;
  --Address seismic design issues for the Waste Treatment Plant at 
        Hanford, to ensure we build a plant that meets all design 
        requirements;
  --Resolve uncertainties that challenge our ability to clean up and 
        dispose of radioactive wastes at our Department of Energy 
        sites. The cleanup of the EM program requires us to work 
        together cooperatively.
    In front of us still remains a tremendous amount of risk reduction 
and environmental remediation, which is why this program still requires 
$6.5 billion in fiscal year 2006 to operate. In addition we have 
uncertainties that challenge us, issues like end states for some sites, 
disposition paths for some wastes, and legal and regulatory issues.
    The Department is taking proactive steps in anticipating and 
addressing such challenges, challenges which are to be expected for a 
program as complex and diversified as EM. We have taken on challenges 
in the past. This experience gives us the confidence to take on what 
some may think are insurmountable issues. We will use our technical, 
legal, and regulatory resources and will work with Congress, affected 
Tribes, State and local authorities along with our community 
stakeholders to continue to provide to our nation the risk reduction 
and cleanup it expects and deserves. EM is and will continue to refocus 
new energy on resolving significant issues and safety performance as 
well as contract performance and integrated acquisition strategy, 
managing post cleanup liabilities, and human capital.
                  the fiscal year 2006 budget request
    The investment we have requested in our fiscal year 2006 budget 
will continue the Department's success in achieving its mission of 
accelerated risk reduction and cleanup completion.
    DOE's 2006 budget request for EM activities totals $6.5 billion. 
The request includes five appropriations, three of which fund on-the-
ground, core mission work, and two of which serve as support. The five 
appropriations and associated requested funding are:
  --Defense Site Acceleration Completion ($5.184 billion)
  --Defense Environmental Services ($831 million) (Includes $451 
        million for the Federal contribution to the Uranium Enrichment 
        Decontamination and Decommissioning Fund.)
  --Non-Defense Site Acceleration ($172 million)
  --Non-Defense Environmental Services ($178 million)
  --Uranium Enrichment Decontamination and Decommissioning Fund ($591 
        million)
    In building the request, the Department applied the following 
principles and priorities:
    Protect workers, public, and the environment.--The budget request 
continues to place the highest priority on protecting workers, the 
public, and the environment. The implementation of EM's cleanup 
strategies allows for an overall improvement in safety and reduction in 
risk because cleanup will be completed sooner, reducing the extent to 
which workers, the public, and the environment have the potential to be 
exposed. Over the past 3 years, improvements in safety performance have 
been demonstrated.
    Ensure the appropriate levels of safeguards and security.--It is 
crucial that we maintain vigilance in our security to protect our 
citizens. The EM program is responsible for many tons of surplus 
nuclear material. There is an overall increase in the safeguards and 
security budget in fiscal year 2006 due to additional security 
requirements primarily at Hanford, but also Savannah River, Oak Ridge, 
Portsmouth, and Paducah, as a result of revisions to the Department's 
Design Basis Threat--the risk scenarios which each of our sites must 
plan to withstand.
    Risk reduction and cleanup completion.--Accelerated risk reduction 
requires a pragmatic approach to cleanup and occurs in various stages, 
which involve the elimination, prevention, or mitigation of risk. 
Because safe disposal of many materials will take a number of years to 
complete, our major focus of risk reduction is stabilization of high-
risk materials, including:
  --High-curie, long-lived isotope liquid waste;
  --Special nuclear materials;
  --Liquid transuranic waste in tanks;
  --Sodium bearing liquid waste in tanks;
  --Deteriorating spent nuclear fuel in leaky or poor integrity basins;
  --Remote-handled transuranic waste and high transuranic content 
        waste; and
  --Transuranic waste stored on the surface.
    Although all of these items are to be considered when setting 
priorities, their relative ranking may vary from site to site. Risk 
reduction is a major consideration in the development of the site 
baselines. Examples of planned activities and milestones for fiscal 
year 2006 that correspond to site-specific risk categories are:
Hanford
  --Complete cleanout of K East and K West basins (sludge, debris, and 
        water).--The K basins are located about \1/4\ mile from the 
        Columbia River. This project involves removing radioactive 
        sludge, debris, and water from wet storage in the K Basins to 
        safe, interim storage or final disposition away from the 
        Columbia River. The K Basin facilities are well past their 
        design lives and are a major threat to the environment due to 
        the potential for basin leakage to the surrounding soil and the 
        Columbia River. Continued deactivation of the K Basins will 
        support final turnover to the River Corridor Closure 
        contractor. Their cleanout will decrease the risks posed by the 
        basins to human health and the environment.
  --Complete remaining activities to support interim safe storage 
        (cocooning) of the H-Reactor.--Complete all remaining 
        activities to support interim safe storage of the H-Reactor, 
        provide safe storage for approximately 825 metric tons of 
        unirradiated fuel in the 300 Area facilities and begin 
        preparations for shipping the material offsite. The interim 
        safe storage of the reactor and fuel will decrease the risks 
        they pose to human health and the environment.
  --Complete dismantlement of 232-Z facility within Plutonium Finishing 
        Plant (PFP) Complex to slab-on-grade.--The PFP Complex consists 
        of several buildings that were used for defense production of 
        plutonium nitrates, oxides and metal from 1950 through 1989. 
        The end state for the PFP is the dismantlement of all 
        facilities to slab-on-grade. Progress will continue on the 
        deactivation and decommissioning of the Plutonium Processing 
        Facility, Plutonium Reclamation Facility, High-Level Liquid 
        Waste Facility, Americium Facility and other nuclear facilities 
        within PFP. Dismantlement of the 232-Z incinerator facility 
        will be completed resulting in reduced risk to human health and 
        the environment.
  --Accelerate the retrieval of suspect transuranic waste and shipments 
        to the Waste Isolation Pilot Plant.--Hanford has several 
        thousand containers of previously generated suspect transuranic 
        waste stored in the ground in a retrievable configuration. The 
        retrieval of this waste will be accelerated from 1,500 m\3\ in 
        fiscal year 2005 to 1,800 m\3\ in fiscal year 2006. Of the 
        retrieved waste, more than 700 m\3\ of transuranic waste will 
        be shipped to the Waste Isolation Pilot Plant for final 
        disposal. Characterization and shipment of this waste to the 
        Waste Isolation Pilot Plant for final disposal will reduce the 
        risks to facility workers as well as reduce the safeguard and 
        security vulnerability associated with this waste. This action 
        represents final disposal of this waste in an environmentally 
        protective repository.
  --Prepare T Plant to support Tri-Party Agreement M-91 Milestone 
        Requirement.--T Plant will be utilized for support of various 
        waste management missions including repackaging of mixed low-
        level and transuranic wastes. T Plant preparation supports the 
        Tri-Party Agreement M-91 milestone requirements for repackaging 
        of large/remote handled mixed low-level and transuranic wastes.
  --Complete upgrade of the remediation system for the 100-D Area 
        Chromium Plume.--Chromium-contaminated groundwater is reaching 
        the Columbia River in the 100-D Area. The contamination levels 
        are more than 20 times the aquatic life water standard, and the 
        area is adjacent to potential salmon spawning locations. To 
        address this, the ground water remediation system in the 100-D 
        Area will be upgraded. As a result, the groundwater reaching 
        the Columbia River will once again meet the aquatic water 
        standards, thereby protecting human health and the salmon 
        population in the River.
  --Complete construction of Integrated Disposal Facility and initiate 
        treatment of selected low-level and transuranic wastes from 
        single-shelled tanks.--Radioactive liquid waste stored in older 
        single-shelled tanks has the potential of leaking and 
        contaminating soil and groundwater that flows to the Columbia 
        River, presenting a risk to human health and the environment. 
        Construction of the Integrated Disposal Facility will provide 
        expandable, on-site disposal capacity for treated low-activity 
        tank wastes, low-level and mixed low-level wastes. Treatment of 
        selected low-level and transuranic tank wastes using 
        supplemental treatment technologies such as bulk vitrification 
        will allow early and accelerated treatment of tank wastes 
        outside the Waste Treatment Plant currently under construction 
        at Hanford.
Idaho
  --Complete the construction and startup repackaging facilities for 
        remote handled transuranic waste, and disposition 6,800 m\3\ of 
        transuranic waste at the Waste Isolation Pilot Plant. 
        Disposition 5,600 m\3\ of low level and mixed low level 
        waste.--These actions will serve to reduce operating, 
        surveillance, and maintenance costs while at the same time 
        offering improvements in waste management and long-term safety 
        and security.
  --Complete design and initiate construction of the Sodium Bearing 
        Waste Treatment Project, to treat tank radioactive wastes.--
        These actions support the EM goal of reducing the risk of 
        stored liquid radioactive waste and support the 1995 settlement 
        agreement with the State of Idaho. These actions will reduce 
        the potential risk to human health by preventing the migration 
        of contamination into the Snake River Plain Aquifer which is a 
        sole source aquifer used to supply water to the people of 
        southeastern Idaho.
  --Close one underground storage tank (WM-184).--This would be the 
        first liquid waste underground storage tank closed since 1997. 
        Removing the liquid waste decreases the risks they pose to 
        human health and the environment, including the underlying 
        Snake River Plain sole-source aquifer.
  --Initiate the deactivation of excess reactors and complete 
        deactivation of the Power Burst Facility, building 620.--These 
        actions will reduce potential risk by deactivating high risk 
        excess Idaho National Laboratory nuclear buildings that have 
        reached the end of their useful lives.
Paducah
  --Continue construction of Depleted Uranium Hexafluoride (DUF6 ) 
        Conversion facility.--The DUF<INF>6</INF> conversion facility 
        will convert depleted uranium hexafluoride into a more stable 
        form (depleted uranium oxide) suitable for reuse or 
        disposition. Depleted uranium oxide will be disposed of at a 
        licensed commercial facility, the hydrogen fluoride by-products 
        will be sold on the commercial market, and the empty cylinders 
        will be crushed and disposed of or reused.
  --Disposition 116 cubic meters of waste.--The continued shipment and 
        disposal of newly generated and legacy waste will 
        proportionally reduce the risk such wastes present to the 
        health and safety of workers and reduce the on-going potential 
        for release to the environment from aging storage containers.
  --Continue decontamination and decommissioning of C-410 Complex.--The 
        C-410 Complex is a large chemical complex in a shutdown 
        condition. Removal of contaminated materials and equipment 
        reduces potential risk to onsite workers and represents a key 
        step in stabilizing the facility such that contaminants are 
        prevented from release to the environment.
Portsmouth
  --Complete Shutdown of Cold Standby Operations and transition to 
        D&D.--Planned transition from cold standby to final shutdown 
        and subsequent decontamination and decommissioning activities. 
        This will result in a significant mortgage cost reduction and 
        will eliminate risk to public health and the environment.
  --Disposition 1,600 cubic meters of legacy waste.--The continued 
        shipment and disposal of legacy waste will proportionally 
        reduce the risk such wastes present to the health and safety of 
        workers and reduce the on-going potential for release to the 
        environment.
  --Operate active and passive groundwater treatment systems.--Plume 
        control keeps contaminants from reaching surface streams and 
        off-site drinking water supplies. Trichloroethylene (TCE), 
        which is an industrial solvent, is the main groundwater 
        contaminant at the site.
  --Complete disposition of the Gas Centrifuge Enrichment Plant 
        components.--Complete shipment of 720 disassembled centrifuges, 
        disposition all RCRA waste, and complete decontamination in 
        certain Gas Centrifuge Enrichment Plant facilities. These 
        facilities are to be used by the United States Enrichment 
        Corporation (USEC) for development and deployment of an 
        advanced centrifuge uranium enrichment plant.
  --Continue construction of DUF6 Conversion facility.--The 
        DUF<INF>6</INF> conversion facility will convert depleted 
        uranium hexafluoride into a more stable form (depleted uranium 
        oxide) suitable for reuse or disposition. Depleted uranium 
        oxide will be disposed of at a licensed commercial facility, 
        the hydrogen fluoride by-products will be sold on the 
        commercial market, and the empty cylinders will be crushed and 
        disposed of or reused.
Oak Ridge
  --Continue demolition of the K-25 and K-27 buildings and process 
        equipment removal.--Decommissioning the buildings will reduce 
        the footprint of the site, and therefore reduces significant 
        fixed costs and risks to the workers by eliminating the need to 
        enter the buildings to perform required, routine surveillance 
        and maintenance activities. Decommissioning the buildings also 
        eliminates the potential environmental and human health risk of 
        accidental releases from these facilities.
  --Initiate the construction of the final expansion of the 
        Environmental Management Waste Management Facility (EMWMF).--
        Construction of the final expansion of the EMWMF represents an 
        important step in the completion of environmental cleanup at 
        the Oak Ridge Reservation. Waste received from remedial action/
        decontamination and decommissioning projects from all of the 
        Oak Ridge Reservation will be placed in the engineered disposal 
        facility. Disposition of this waste will greatly decrease the 
        risks to public health and the environment.
  --Complete Melton Valley cleanup.--Completion of Melton Valley 
        cleanup in fiscal year 2006 will ensure that the largest source 
        term threatening the nearby Clinch River is contained, on-site 
        surface water quality is improved to meet required standards, 
        and off-site users of the Clinch River remain protected.
  --Complete shipment of DUF6 cylinders to Portsmouth.--This will 
        complete the removal of all remaining cylinders from the East 
        Tennessee Technology Park in accordance with the Tennessee 
        Department of Environment and Conservation Order.
  --Initiate contact-handled transuranic waste processing at the Waste 
        Treatment Facility.--This waste is stored in above grade-
        storage facilities and in earthen trenches. Processing the 
        waste prevents the risk of release to the environment and the 
        continued cost of waste storage and monitoring.
  --Complete Offsite Remediation. Complete Atomic City Auto Parts. 
        Complete building and debris removal at Witherspoon 901 
        sites.--This action will reduce the risks posed to workers and 
        the surrounding community from uranium and polychlorinated 
        biphenyls contamination in the soil.
Los Alamos National Laboratory
  --Disposition 1,400 cubic meters of legacy transuranic waste and 
        initiate retrieval of legacy transuranic waste storage above 
        ground.--Characterization and shipment of this waste to the 
        Waste Isolation Pilot Project for final disposal will reduce 
        the risks to facility workers as well as reduce the safeguard 
        and security vulnerability associated with this waste. This 
        action represents final disposal of this waste in an 
        environmentally protective repository.
Savannah River Site
  --Complete processing neptunium solutions.--SRS has approximately 
        6,000 liters of neptunium-237 nitrate solution in H-Canyon. 
        Through processing, the neptunium solutions are converted into 
        a more stable form, and the risks they pose to human health and 
        the environment are reduced.
  --Complete de-inventory and deactivation of the F-Area nuclear 
        materials processing facilities.--Complete de-inventory and 
        deactivation of the F-Area nuclear materials processing 
        facilities including F Canyon, FB Line, and F Outside 
        Facilities. In addition, complete the stabilization and 
        packaging of plutonium to DOE Standard 3013 in FB Line. This 
        will greatly reduce the security threat and the large fixed 
        costs associated with these facilities as well as the risk 
        posed to human health and the environment.
  --Continue to stabilize liquid waste from underground storage 
        tanks.--Complete design and begin construction of Salt Waste 
        Processing Facility; produce 250 canisters of vitrified high-
        level waste.
  --Complete decommissioning of 28 industrial, nuclear, and radioactive 
        facilities, including the completion of M Area Facilities.--
        Decommissioning excess radioactive facilities will reduce the 
        footprint of the site and associated fixed costs, and therefore 
        collectively reduce risk to the worker by eliminating the need 
        to enter the facilities to perform required, routine 
        surveillance and maintenance activities. Risk of worker 
        exposures while performing these activities is eliminated. 
        Decommissioning excess radioactive facilities also eliminates 
        the potential environmental and human health risk of accidental 
        releases from these facilities.
Brookhaven National Laboratory
  --Complete removal of Brookhaven Graphite Research Reactor Canal and 
        continue Reactor Pile removal.--Brookhaven National Laboratory 
        sits over a sole-source aquifer used as a primary source of 
        drinking water for the people of Long Island. Decontamination 
        and decommissioning of the Brookhaven Graphite Research Reactor 
        activities for fiscal year 2006 will remove the Canal and the 
        Graphite Pile, both highly contaminated components from the 
        reactor; contaminated soils adjacent to the reactor will also 
        be removed. These actions will reduce the potential risk to 
        human health by eliminating a possible source of contamination 
        to the aquifer.
Waste Isolation Pilot Plant
  --Begin receipt and placement of remote-handled transuranic waste.--
        The Waste Isolation Pilot Plant, in Carlsbad, New Mexico, is 
        the Nation's mined geologic repository for the permanent 
        disposal of defense-generated transuranic waste. All 
        transuranic waste comes to the Waste Isolation Pilot Plant for 
        receipt, handling, and disposal. WIPP is not permitted to 
        receive and dispose of remote-handled transuranic waste 
        (defined as such because it generates higher levels of 
        radiation). The permitting activities this year, which come 
        from the combination of many years of regulatory, scientific 
        and engineering efforts, will enable WIPP to receive remote-
        handled waste by June 2006. This will remove these wastes from 
        around the complex where it constitutes a major health and 
        safety risk, into a centralized, safe disposal site in New 
        Mexico.
    Maintain closure schedules.--Three major sites, Rocky Flats, 
Fernald, and Mound, have accelerated closure schedules. In addition, 
two smaller sites, Ashtabula and Battelle-Columbus are scheduled to 
close in 2006. Funding in the fiscal year 2006 budget will allow these 
sites to remain on track toward project completion and site closure.
    At Rocky Flats, fiscal year 2006 funding provides for:
  --Completing the disposal of legacy low-level and mixed low-level 
        waste to off-site disposal; completing remediation of all 
        remaining release sites.--During fiscal year 2006, Rocky Flats 
        will be completing their commitment of site closure and 
        conversion of the Rocky Flats site for future beneficial use. 
        All of the legacy waste as well as amounts generated by 
        remediation will be disposed of off-site in DOE or commercial 
        disposal facilities. Remediation will be completed on all 
        remaining release sites including building foundations and 
        ponds. Site re-contouring and grading will be completed along 
        with all necessary regulatory and project closure 
        documentation.
  --Completing nuclear facility deactivation and decommissioning for 
        all nuclear as well as non-nuclear buildings on site.--All the 
        buildings where plutonium and other hazardous materials were 
        used in support of the nuclear weapons deterrent, which 
        constitute over 1,000,000 square feet of space, will be 
        demolished. All final quantities of radioactive wastes will be 
        removed from the site, and the grounds will be receiving the 
        necessary remediation action. These actions, when complete, 
        will allow the Department of Energy to release the site to the 
        U.S. Fish and Wildlife Service to become the Rocky Flats 
        National Wildlife Refuge with little or no further risk to 
        human health or the environment.
    At Fernald, fiscal year 2006 funding provides for:
  --Completing decontamination and decommissioning of Silos 1, 2, and 3 
        treatment facilities and associated support structures/
        facilities.--Silos 1 and 2 contain the highest levels of 
        radiological activity residing in any waste stream at the site, 
        a risk to human health and the environment. The Silos 1 and 2 
        Project constitute the Site Closure Critical Path. Their 
        successful completion is a prerequisite for a timely and safe 
        closure.
  --Completing construction of the On-Site Disposal Facility Cells 6 
        and Cell 7 caps, contaminated soil excavation, expansion and 
        capping of Cell 8, and natural resource restoration.--
        Completing soil excavation, disposal into the onsite cells, and 
        capping the cells of the On-Site Disposal Facility (OSDF) will 
        insure the reduction in risk to human health and the 
        environment during post closure. Overall, the OSDF will be 
        composed of 8 cells, containing 2.5 million cubic yards of 
        waste soil and debris. The OSDF has been designed and 
        engineered to possess a 5-foot thick liner and a 9-foot thick 
        cap. The OSDF has a design life of 1,000 years.
    At Mound, fiscal year 2006 funding provides for:
  --Completing the excavation and verification of Potential Release 
        Site 131 (soil beneath Buildings R, SW, and B Slab) and the 
        remaining Potential Release Sites and ship the remaining 
        remediation waste for off-site disposal, and transfer remaining 
        land to the Miamisburg Mound Community Improvement Council.--
        Completing Potential Release Site 131 decreases risk by 
        preventing any further radioactive contamination from migrating 
        into clean soil areas and ground water, by reducing potential 
        exposure to site workers and other personnel located on site, 
        and by precluding any potential environmental impacts to off 
        site areas.
    At Ashtabula, fiscal year 2006 funding provides for:
  --Completing remediation of the Waste Management Unit.--Remediating 
        the Waste Management Unit significantly reduces the remaining 
        risks of organic and inorganic chemical exposure to both soil 
        and groundwater at the RMI site.
    At Battelle-Columbus, fiscal year 2006 funding provides for:
  --Completing demobilization of equipment and site infrastructure to 
        support closure and complete off-site disposal of transuranic 
        waste.--Demobilization of the remaining equipment and 
        infrastructure will support final closure of the site. Removal 
        of the transuranic waste will also reduce risk to off-site 
        areas and members of the general public.
                               conclusion
    Three years ago we started down the path to bring clarity and focus 
to our mission and deliver on our commitments. We must continue to 
improve our performance and look beyond the gains we have made to 
achieve our vision for the benefit of future generations. I have 
challenged our partners in cleanup: our workforce, our contractors, our 
regulators, our communities, and all those interested in joining us in 
our vision of cleanup to put their most innovative ideas and people 
forward. We must not lose the momentum that has been established, 
particularly as we work through the tremendous challenges that still 
face us. This program spends nearly $1 million per hour, 24 hours per 
day, 7 days a week. The question is how we continue to return value to 
the communities and taxpayers with this program. We are committed to 
using our resources to show meaningful risk reduction and cleanup 
completion results.
    We must never go backwards, to the time when we measured success by 
how much we spent, not by how much we did. We must never again believe 
the falsehood that it is a choice between being safe and doing work, 
for it is only when we do our work that we are really safe. We must not 
by our inaction allow this legacy to become our children's, 
grandchildren's, or our great-grandchildren's problem . . . it is for 
us to solve and for us to complete. We must demand excellence and never 
again accept the notion that this job is too hard or too dangerous to 
complete. We have demonstrated that we can do this work, that we can do 
it safely, and that we can do it on a schedule to be completed in our 
lifetime.
    The challenges before us are formidable. To solve them will require 
our collective resources, ingenuity, and hard work. But we are up to 
this challenge. Over the last 3 years, EM has demonstrated that 
challenges can be overcome.
    Again, I thank you for the support you have provided these last few 
years, and I ask for your continued support in this very important 
work. The potential is there to lose what we have gained should we fail 
to stay true to our commitments: a cleanup that is safe for the worker, 
protective of the environment, and respectful of the taxpayers.
    I look forward to working with the committee and others to achieve 
this worthy goal.
            Office of Civilian Radioactive Waste Management

STATEMENT OF THEODORE J. GARRISH, DEPUTY DIRECTOR
    Mr. Garrish. Mr. Chairman, members of the committee, I am 
Ted Garrish, Deputy Director of the Department's Office of 
Civilian Radioactive Waste Management. I'd like to thank the 
committee for inviting me here to discuss our program, and in 
the interest of time, I'd like to cut down a little bit on some 
of my remarks.
    As you know, it is a priority of this administration to 
consolidate waste currently at 125 sites in 39 States to a 
single, secure, remote location. We remain committed to our 
obligation to safely dispose of spent fuel and high-level 
radioactive waste resulting from commercial nuclear power and 
defense activities.
    First, as I begin, I'd like to address some of the opinions 
that have been offered to the effect that the program is unable 
to move forward. Some people have suggested that it's even 
broken. On the contrary, this program has a sound, scientific, 
and technical basis, and we are moving forward step by step 
toward the development of a repository at Yucca. I believe we 
are better situated than we have ever been to move forward with 
this program, and let me describe a couple of the reasons.
    First and foremost, we have a site for the repository. 
Congress approved the Yucca Mountain site in 2002, and the 
courts have affirmed the constitutionality of the site 
selection process and we have a location for the repository. 
Secondly, we have a draft of the entire license application in 
hand and we are making improvements to the analysis to provide 
a high quality presentation by the end of this calendar year.
    To this end, we have submitted 293 of the key technical 
issue agreements to the Nuclear Regulatory Commission, and they 
are in the process of reviewing them. Two hundred and nine have 
been closed. We are improving our computer models to reflect 
the conditions in the future. We have provided over 1 million 
documents, which is 5 million pages, to the Nuclear Regulatory 
Commission for their web site for interested parties to review 
the license application and related material. We currently 
estimate that we have approximately 3.7 million documents to 
put into the licensing support network and we are approximately 
44 percent complete.
    We have had positive exchanges with the Nuclear Waste 
Technical Review Board ranging from groundwater flow to the 
waste package corrosion. All told, the license application 
process is going well.
    Third, the transportation program in Nevada and throughout 
the country is moving forward in earnest. The EIS process for 
the Nevada rail alignment is well along in the process, and we 
expect the draft EIS to be completed in the near future. And we 
have begun our institutional activities with getting tribes and 
States as our partners around the country. These are all 
positive developments demonstrating that we are making 
progress. Nevertheless, the program does face challenges 
involving parties outside the Department. These include the 
court decision on the EPA standard and the need for funding 
reform.
    Last summer, as you know, the U.S. Court of Appeals vacated 
EPA's Yucca Mountain radiation protection standard with regard 
to the 10,000 year regulatory compliance period. EPA is 
currently preparing a radiation standard to conform with the 
court's direction. We remain optimistic that EPA's work in 
promulgating the standard will be contemporaneous with our work 
on the license application, and both will be ready by the 
latter part of this year.
    In addition, we are facing serious funding issues for the 
future. Both Congress and the administration have recognized 
the funding program facing the program and have desired to make 
the nuclear waste money--fund monies available for their 
intended purpose. To ensure sufficient and stable funding, the 
administration remains supportive of the concept embodied in 
our legislative proposal submitted last year, and the 
administration remains interested in pursuing further 
discussions with Congress on these issues in the hope of 
reaching some agreement that will assure access to the nuclear 
waste fund when that money is needed.
    Despite these challenges, the program is on sound footing 
and we are poised to make significant progress in the coming 
years. In the current fiscal year 2005, there have been several 
important objectives, mainly to focus on refining and 
completing the license application. Supporting that, we are 
continuing to work on the design of the waste package, the 
surface and sub-surface facilities, and to complete the total 
system performance assessment.
    We anticipate completing the certification of the licensing 
support network mid-summer, preparing millions of pages of 
documentation for the public. And on transportation, we are 
anticipating completing the draft EIS of the Nevada rail and 
completing the conceptual design of that rail objectives in 
fiscal year 2005.
    Fiscal year 2006 is a critical period for the Department. 
We will be submitting our license application and we will begin 
the NRC regulatory process leading to the issuance of the 
construction authorization. As we submit the license 
application and as we proceed, we are going to need to advance 
the repository design. We will need to support the NRC review 
and to support our defense of the license application.
    For transportation, we will need to continue with our 
design and pre-construction activities for the Nevada rail and 
to develop cask and railroad cars used to develop waste. Our 
budget request of $651 million represents a modest increase in 
funding to complete the tasks we believe can reasonably be 
accomplished in fiscal year 2006. We will continue to make real 
progress on the license and the repository and the development 
of the national infrastructure for accepting and transporting 
waste, and we urge your support for our budget request, and 
we're pleased to work with you on the various issues that 
should come up in fiscal year 2006.

                           PREPARED STATEMENT

    Finally, I cannot emphasize enough the administration's 
continued strong support for this program as we move forward 
with the implementation. And I will be happy to respond to your 
questions. Thank you.
    [The statement follows:]
               Prepared Statement of Theodore J. Garrish
    Mr. Chairman and members of the committee, I am Ted Garrish, Deputy 
Director of the Department of Energy's (DOE) Office of Civilian 
Radioactive Waste Management (OCRWM). I appreciate the opportunity to 
present our fiscal year 2006 budget request and discuss our plans to 
license, build, and operate a geologic repository at Yucca Mountain in 
Nevada, and our efforts to develop the transportation system needed to 
deliver spent nuclear fuel and high-level radioactive waste to the 
repository.
    There has been a lot of comment about this Program being unable to 
move forward. On the contrary, the Program is as well situated as it 
has ever been. Indeed, we are in excellent shape for the future and we 
are moving ahead deliberately, step-by-step, toward development of a 
geologic repository at Yucca Mountain. Here are some of the reasons why 
this Program is poised for success:
  --We have a site for the geologic repository. Congress approved the 
        Yucca Mountain site in Nye County, Nevada for development as a 
        repository in 2002. Lawsuits have affirmed the 
        constitutionality of the process and therefore we have a 
        location for the development of a repository.
  --We have a draft of the license application in the process of 
        refinement. We are making improvements to the analysis and 
        presentation of information to meet one objective of completing 
        preparation of a high quality license application by the end of 
        this calendar year.
  --Transportation activities have begun in earnest. We issued Records 
        of Decision for both transportation mode and the rail line 
        corridor through Nevada. We are currently preparing an 
        Environmental Impact Statement for the specific rail alignment 
        within that corridor. Institutional activities to include the 
        States as partners have also begun.
  --We are requesting the full funding amount needed to complete those 
        tasks we can reasonably accomplish in fiscal year 2006. The 
        Department will continue to request the appropriate funding 
        required for the project.
  --The administration continues its strong support of this Program as 
        we move forward with its implementation.
    This Program does face a couple of challenges involving parties 
outside the Department that I would like to briefly bring to your 
attention.
    First, the U.S. Court of Appeals for the District of Columbia 
Circuit vacated the Environmental Protection Agency's Yucca Mountain 
radiation protection standard with regard to its 10,000 year regulatory 
compliance period. EPA is currently working to revise its Yucca 
Mountain radiation standard to conform to the court's direction. We 
remain hopeful that EPA's work in promulgating the standard will be 
contemporaneous with our work on the license application and that both 
will be ready by the latter part of the year.
    Second, both Congress and the administration have recognized the 
long-term funding problem facing the Program and the need to make 
Nuclear Waste Fund monies available for their intended purpose. The 
administration believes that the fees currently paid to the government 
by utilities to finance the repository should be treated as offsetting 
collections against the appropriation from the Nuclear Waste Fund. The 
amount credited as offsetting collections should not exceed the amount 
appropriated for the repository. To ensure stable and sufficient 
funding, the administration continues to support the concept embodied 
in the legislative proposal submitted last year to provide the 
increased annual funding needed for construction and operation of the 
repository. The administration remains interested in pursuing such a 
proposal and intend to have further discussions with Congress on these 
issues in the hope of reaching some agreement.
    Despite these challenges, the Program is fundamentally on sound 
footing and we are poised to make significant progress in the coming 
year.
                  the fiscal year 2006 budget request
    Fiscal year 2006 is a crucial period for the Department and for the 
regulatory process leading to issuance of a construction authorization 
for the Yucca Mountain Project. To accomplish our goals, the budget 
request $651 million for the Program in fiscal year 2006. A significant 
portion of the work planned for fiscal year 2006 is required to advance 
the repository design and facilitate construction and operation, and to 
support the NRC's review and the Department's defense of the license 
application. In addition, funding will also support design and pre-
construction activities for the approximately 300-mile Nevada branch 
rail line. The Department will also continue to support development of 
transportation casks and railroad cars capable of delivering spent fuel 
and high-level waste to the repository.
    To set the stage for our fiscal year 2006 budget request, I would 
like to describe briefly OCRWM's fiscal year 2004 accomplishments and 
our ongoing activities based on our fiscal year 2005 appropriation.
                    fiscal year 2004 accomplishments
    Having achieved Congressional and Presidential approval of the 
Yucca Mountain site in 2002, we have transitioned from a scientific 
study program to one focused on the regulatory requirements for 
obtaining a license from the NRC to construct and operate the proposed 
repository.
    Over the past 2 years the main effort of the program has been 
preparation of the license application for submittal to the NRC. The 
majority of the funding for the Yucca Mountain Project in fiscal year 
2004 was devoted to various aspects of the license application. While a 
solid working draft had been received, the Program elected to take the 
time afforded by the vacating of the EPA standard to strengthen the 
license application and ready it for submission in calendar year 2005. 
The Program has established plans for completing and further 
strengthening the license application and has based its funding request 
upon these plans.
    The Program prepared a design and a detailed plan for repository 
licensing, construction, and operation, and focused on completing the 
license application to the NRC for authority to construct the 
repository. By the end of fiscal year 2004, the Yucca Mountain Project 
had accomplished the following:
  --Completed required elements of the design of the waste package and 
        repository facilities in support of the license application.
  --Addressed all ``key technical issue'' agreements that the 
        Department and the NRC had agreed needed to be addressed prior 
        to license application submittal.
  --Prepared tens of millions of pages of relevant documentation for 
        inclusion in the electronic Licensing Support Network.
  --Prepared a draft license application for construction of the 
        repository facilities needed to begin acceptance of spent fuel 
        and high-level waste.
  --Institutionalized a Science and Technology Program to enhance the 
        understanding of the repository system and potentially reduce 
        the Program's cost and schedule.
    In addition, during fiscal year 2004, the OCRWM Office of National 
Transportation completed conceptual design and project management 
documentation needed to support cask and rolling stock acquisition and 
rail line design and construction, issued a Record of Decision to use 
the mostly rail mode of transportation, and issued a second Record of 
Decision selecting the Caliente corridor for the Nevada branch rail 
line.
                  fiscal year 2005 ongoing activities
Yucca Mountain Project
    Consistent with Departmental and Program objectives, the Yucca 
Mountain Project's main focus in fiscal year 2005 is on improving and 
completing the license application. The required elements of design, 
performance assessment, safety analyses, and technical data in the 
license application must be sufficient for the NRC to conduct an 
independent review and reach a decision to issue a construction 
authorization. The application must demonstrate that the repository can 
be constructed and operated and that the health and safety of the 
public will be protected.
    By the end of fiscal year 2005, with the funds appropriated, our 
objectives are to:
  --Make significant progress on and improvements to design for the 
        waste package, surface facilities, and subsurface facilities in 
        support of the license application.
  --Complete total system performance assessment calculations and final 
        report in support of the license application.
  --Complete certification of the electronic Licensing Support Network 
        consistent with the requirements of 10 CFR Part 2, Subpart J, 
        by preparing tens of millions of pages of relevant 
        documentation to support review of the license application.
    Even though site characterization is complete, in fiscal year 2005 
we are continuing to collect valuable scientific information, including 
for the Performance Confirmation baseline. The NRC requires scientific 
analyses in support of Performance Confirmation to continue until the 
repository is permanently closed.
National and Nevada Transportation Projects
    In early fiscal year 2004, the transportation program focused on 
selecting the transportation mode and the corridor for the Nevada 
branch line that would establish the transportation system's 
infrastructure requirements. In April 2004, the Department announced 
the Record of Decision for the selection of rail as the mode of 
transportation and a second Record of Decision for the selection of 
Caliente corridor for construction of a branch rail line in Nevada to 
connect from an existing rail line to the Yucca Mountain site. The 
program is now planning and developing designs for infrastructure 
development projects to provide the capability for transporting spent 
nuclear fuel and high-level waste to the repository. Funding in fiscal 
year 2005 supports completion of the conceptual design process and 
issuance of the draft Rail Alignment Environmental Impact Statement for 
the transportation system in Nevada. Funding also supports initial 
investments in transportation infrastructure needs, including 
transportation casks, railroad rolling stock, operations planning, and 
the business systems needed to manage multiple procurements and 
construction projects.
Program Management and Integration
    A key component of the Program Management and Integration budget 
element is Quality Assurance (QA). In the last year we continued to 
make progress in the implementation of our QA program requirements. 
Several independent assessments have determined that the QA program is 
being effectively implemented.
    During this fiscal year, we continue to take steps to ensure we are 
prepared to manage major capital projects efficiently and cost-
effectively. We submitted an updated Capital Asset Management Plan for 
the Program to the Office of Management and Budget and the Congress in 
November 2004 and have completed a comprehensive program acquisition 
strategy. We continue to strengthen our performance measurement and 
project management capabilities and systems, and have institutionalized 
their use in monitoring and managing all the activities that support 
license application completion. We continue to implement the 
President's Management Agenda.
    In fiscal year 2005, the Science and Technology Program continued 
work in the areas of repository materials performance, applied research 
on the Yucca Mountain geologic environment, and methods for developing 
new substances that will selectively capture waste elements. 
Additionally, projects will be initiated to examine advanced welding 
technologies, development of innovative materials for potential use in 
waste packaging and the repository's tunnels, and the potential 
application of additional advanced remote handling and robotics 
technologies in the repository system.
                    fiscal year 2006 key activities
Yucca Mountain Project
    Fiscal year 2006 is a crucial period for the Department and for the 
regulatory process leading to the NRC's issuance of a construction 
authorization for the Yucca Mountain Project. After submittal, the NRC 
is expected to start the docketing review and if, docketed, a detailed 
technical review of the license application. Docketing of the 
application will initiate adjudicatory proceedings on the license 
application. A significant portion of the work planned for fiscal year 
2006 is required to advance the repository design and facilitate 
construction and operation, and to support the NRC's review and the 
Department's defense of the license application. Departmental 
activities encompassed within this work scope are premised on meeting 
NRC requirements and obtaining any necessary regulatory approvals.
    The Department will be required to respond to technical questions 
and requests for additional information from the NRC in a timely 
fashion. The Department will also be required to appear at the 
evidentiary hearings that are likely to begin by fiscal year 2007 
following the completion of the Commission's review of the license 
application and issuance of its Safety Evaluation Report on that 
application. The NRC is expected to issue a final decision on a 
construction authorization for the repository 3 to 4 years after 
submittal of the license application, the statutorily established time 
period.
    In parallel with the licensing process, the Program must focus on 
design of the repository must and ensure that the site is ready to 
support construction as soon as it is authorized by the NRC.
    By the end of fiscal year 2006, our objectives are to have:
  --Completed the preliminary design for the waste package, surface 
        facilities, and subsurface facilities, which requires 
        continuing performance assessment analysis.
  --Completed and submitted a license application for repository 
        construction authorization to the NRC.
  --Responded to NRC's initial Request for Additional Information as 
        they review the license application.
  --Updated the LSN certification concurrent with license application 
        submittal.
  --Continued to refine the safety analysis as needed, in response to 
        NRC review and in accordance with NRC licensing regulations.
  --Fabricated prototype waste packages to ensure a process that is 
        replicable while meeting rigid quality assurance requirements.
  --Initiated procurement activities for materials, equipment and 
        services needed for construction of the surface and underground 
        facilities.
  --Completed upgrades of existing facilities needed for site safety.
  --Developed designs for site infrastructure facilities and utilities 
        needed to support the start of construction.
  --Completed the detailed work plan, cost estimate, and schedule, and 
        established a performance baseline for the final repository 
        design and construction.
    We are requesting funding for payments-equal-to-taxes to the State 
of Nevada and to Nye County, Nevada, where Yucca Mountain is located. 
Our fiscal year 2006 request also includes funding for Affected Units 
of Local Government, as well as funding to the University System of 
Nevada and to Nye County and Inyo County, California, for independent 
scientific studies. The increased request for State and local 
government oversight represents a one-time adjustment in the funding 
cycle to align with State and county fiscal years.
National and Nevada Transportation Projects
    The requested funding will support the initiation of design and 
pre-construction activities for the branch rail line through Nevada as 
well as initial procurement of railroad cars, transportation casks and 
auxiliary equipment and will accelerate operational capability.
    For Nevada Transportation, DOE plans to issue the Final Rail 
Alignment Environmental Impact Statement and issue a Record of Decision 
identifying the alignment within the selected corridor on which the 
railroad may be built. The Department expects to complete the 
preliminary design and award a design/build contract for completion of 
the design and actual construction of the rail line and associated 
support facilities. Procurement of long lead-time rail construction 
materials, including track way and auxiliary equipment, will also be 
initiated.
    The National Transportation Project encompasses overall system 
planning, procurement of casks and rolling stock or railroad cars, and 
stakeholder relations activities. Significant lead time is required for 
solicitation, evaluation of proposals, NRC certification (for new 
designs), and fabrication of transportation casks. The initial 
procurement of transportation casks is needed to provide the capability 
for waste acceptance to support repository operations. We are working 
with the cask vendor industry to procure an efficient cask fleet that 
maximizes the government's ability to support the full range of 
contents that need to be shipped with the minimum number of separate 
designs. These procurements will proceed towards cask fabrication in a 
step-wise manner to maintain flexibility on final procurements as long 
as possible. We will also continue to address a new railcar standard 
implemented by the American Association of Railroads for shipments of 
spent nuclear fuel and high-level waste. Finally, the Program will 
conduct conceptual design activities for transportation support 
facilities, most significantly for the Fleet Management Facility which 
will provide cask and railcar maintenance capabilities during 
operations.
    The National Transportation Project will also continue to expand 
its efforts to engage a wide range of stakeholders with regard to 
establishing preliminary transportation routes, operating protocols, 
and safeguards and security activities. The Department will work with 
key stakeholders to identify a suite of potential transportation 
routes, and we will continue to support State regional groups and 
tribes to develop a policy for funding State and tribal emergency 
response training and technical assistance as required by Section 
180(c) of the NWPA.
Program Management and Integration
    The budget request reflects the Program's need to have the 
strongest possible Quality Assurance program as it moves into the 
licensing phase. Quality Assurance is the cornerstone in assuring that 
the Program has successfully implemented the radiological safety and 
health and waste isolation activities required by NRC regulations. We 
will continue to institutionalize a nuclear safety culture by 
completing efforts introduced through the Management Improvement 
Initiative to meet the NRC's expectations of its licensees.
    The fiscal year 2006 request also contains funding for systems 
engineering and analysis activities to enable us to better evaluate and 
optimize the Program's component elements as they begin to converge 
into a single waste management system. In addition to the repository 
and transportation readiness, the third key piece that must be put in 
place is waste acceptance readiness. That is, the Program must 
establish the ``pipeline'' of wastes destined for Yucca Mountain. By 
addressing waste acceptance issues now, we can ensure that repository 
facilities and transportation infrastructure will be compatible with 
the commercial spent nuclear fuel and DOE-managed wastes that are 
planned for receipt. OCRWM will work closely with the Office of 
Environmental Management on DOE spent nuclear fuel and high-level waste 
acceptance criteria to ensure that we have an integrated, timely, and 
cost-effective approach.
    Requested funding in fiscal year 2006 for the Science and 
Technology Program reflects the Department's continuing commitment to 
enable the repository system to take advantage of the very latest 
scientific discoveries and technologies that may be potentially 
applicable over the long life of the repository.
Program Direction
    The Program Direction budget request supports Federal salaries, 
expenses associated with building maintenance and rent, training, and 
management and technical support services, which include independent 
Nuclear Waste Fund audit services and independent technical and cost 
analyses. The increased request (approximately 2.5 percent) reflects a 
small increase in Federal staff expenses to manage additional 
repository design/licensing activities and National and Nevada 
transportation work.
          ensuring adequate resources to complete the mission
    The Department of Energy and the Congress have been aware for many 
years that funding requirements for the repository program would 
increase substantially as we approach construction and transportation 
system development. In fiscal year 2007 and beyond, the Program will 
need significantly increased funding to pay for the design, 
construction, and operation of the repository, and for acquisition and 
development of the transportation infrastructure. Much greater 
certainty of funding is needed for such a massive capital project to 
ensure proper and cost-effective planning and acquisition of capital 
assets. Delays simply increase costs without meeting the Federal 
responsibility for safe, secure disposal of the waste.
    In accordance with the funding approach established in the Nuclear 
Waste Policy Act, the Department collects annual fees from nuclear 
utilities for the disposal of their spent nuclear fuel. The fees are 
reflected in the utility bills that their customers receive. In fiscal 
year 2006, an estimated $752 million will be collected. We should not 
delay in making these resources available for their intended purpose.
    The administration believes that the fees currently paid to the 
government by utilities to finance the repository should be treated as 
offsetting collections against the appropriation from the Nuclear Waste 
Fund. We will continue to work within the administration and with our 
Congressional counterparts to afford sufficient available funding to 
meet Yucca Mountain's programmatic requirements.
                       cost reduction initiatives
    While addressing the funding needs of the Program is a high 
priority, we also believe that by looking at several system 
enhancements we can improve both the near-term and long-term funding 
outlook. With this goal in mind, we are looking at potential 
enhancements that can be achieved through phased development, technical 
alternatives, and acceleration of operations.
    Under a phased development approach to repository construction, we 
have divided the surface and underground facilities into several phases 
so that the repository can be constructed and operated in stages. The 
license application will address all facilities necessary to emplace 
70,000 metric tons of spent nuclear fuel and high-level radioactive 
waste, and will describe the incremental process for building those 
surface and underground facilities in modules and panels. In addition 
to controlling short-term cost spikes, this strategy will increase 
confidence in our ability to accelerate operations, allow experience 
from initial operations to guide later activities, and retain 
flexibility for the incorporation of future technology improvements.
    We are making investments today in science and technology that will 
result in life-cycle cost savings, schedule efficiencies, and improved 
understanding of the safety and security of the repository system. To 
date, we have identified potential cost savings opportunities totaling 
several billion dollars over the long operating life of the repository 
in areas such as welding, advanced materials, techniques for excavating 
the underground tunnels, and low-maintenance ground support. While 
current technology and technical information are adequate to support 
the license application, we believe that strategic investments today 
can yield substantial benefits over the long term.
                           concluding remarks
    We are committed to the goal of beginning to receive and transport 
spent nuclear fuel and high-level waste to an NRC-licensed repository. 
Toward that end, our objective is to complete a high-quality license 
application and have it ready to submit to the NRC in December of this 
year.
    We are requesting a moderate increase in funding in fiscal year 
2006 to continue progress on licensing and constructing a geologic 
repository and developing the national infrastructure for accepting and 
transporting spent nuclear fuel and high-level waste. After more than 
20 years of scientific study, a site approval process involving the 
Department, the State of Nevada, Congress, and the President, and 
purposeful efforts toward securing a license, we are on the edge of the 
licensing and construction phase of this Program. We urge your support 
for our budget request, and we are pleased to be able to work with you 
on this important national issue.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. I'm getting fairly short of time because 
I believe it's unfair for me not to be at the Budget Committee 
hearing, and you have the same situation. I assume you're going 
to submit some questions.
    Senator Murray. I will submit my questions.
    Senator Domenici. I think what I'm going to do, I have some 
on both issues, I'm going to submit them.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Pete V. Domenici
                   office of environmental management
                   national academy of sciences study
    Question. Last week the National Academy of Sciences panel 
published a report that evaluated the risk-based approach DOE utilizes 
in making cleanup and disposal decisions for transuranic and high level 
waste. The study made a number of findings. I am interested in Finding 
#7, which found that ``DOE's planning and decision making is reduced by 
the apparent conflict of interest created by DOE's authority to propose 
and approve disposition plans for radioactive waste.'' The NAS 
suggested that as an alternative, DOE have either EPA or the NRC serve 
as an independent regulator.
    As outlined in this finding, it would appear that the Department 
doesn't have any oversight or limitations on its ability to 
characterize and dispose of transuranic and high level waste. That 
isn't the case, is it?
    Answer. Actually, several entities provide oversight or review of 
the Department's plans and operations for characterizing, retrieving, 
treating and disposing of transuranic (TRU) and high-level waste (HLW). 
The U.S. Environmental Protection Agency (EPA) is responsible for 
certifying all TRU waste streams to be disposed at the Department's 
Waste Isolation Pilot Plant (WIPP) in Carlsbad, New Mexico. 
Additionally, the New Mexico Environment Department must approve permit 
modification requests for certain new TRU waste streams proposed for 
disposal in WIPP. State environmental organizations provide oversight 
of certain HLW management functions conducted at DOE locations, 
including granting environmental permits for HLW treatment facility 
operations. Both the EPA and the U.S. Nuclear Regulatory Commission 
(NRC) have a regulatory role in the disposal of HLW. EPA specified the 
radiation protection standards that a HLW repository is required to 
meet. The NRC will license the construction and operation of a HLW 
repository that meets the radiation protection standards. The Defense 
Nuclear Facilities Safety Board (DNFSB) provides oversight of 
activities related to operation of defense facilities to ensure 
adequate protection of public health and safety. Much of DOE's TRU and 
HLW are defense wastes, and consequently many of the facilities used 
for retrieving and treating such wastes for disposal are under DNFSB 
oversight. Additionally, the U.S. Department of Transportation 
prescribes regulations for the transportation of radioactive materials 
that the Department must meet for the packaging and shipping of its 
treated HLW and TRU from its generation sites to disposal sites.
    Question. Do you believe the NAS finding has any merit, and is the 
Department considering using an independent arbiter to review DOE 
disposal plans?
    Answer. The Department agrees with the approach to independent 
oversight of cleanup and disposal decisions for transuranic (TRU) and 
high-level waste (HLW) provided by the U.S. Environmental Protection 
Agency (EPA) and the State for TRU, and the U.S. Nuclear Regulatory 
Commission (NRC), EPA, the States, the Defense Nuclear Facilities 
Safety Board and the U.S. Department of Transportation in connection 
with HLW. For example, provisions of section 3116 of the National 
Defense Authorization Act for fiscal year 2005 call for a consultation 
role by the NRC, and stipulate a State-approved closure plan or State-
issued permit for such wastes that the Secretary determines not to be 
HLW in accordance with section 3116. In addition, for wastes not 
subject to section 3116, DOE would continue its past practices of 
providing for independent review of such determinations by the NRC, and 
work with the host States to obtain necessary permits and approval of 
associated plans, such as closure plans. In these cases, both NRC and 
the States act as independent arbiters.
    Question. Several of the findings of the National Academy of 
Science study determined that ``it is infeasible to recover and dispose 
of every last bit of waste that might be classified as transuranic or 
high level.'' It also found that the cost and potential exposure of 
trying to recover every last gram of waste was not justified by the 
actually [sic] risk reduction. While the NAS study seems to favor the 
Department's decision to use a risk-based approach to cleanup, the 
report was very critical of the Department's lack of effort in seeking 
input from stakeholders and the public. How do you respond to this 
assertion that the Department has failed to include public 
participation and stakeholder input?
    Answer. One of the keys to the Office of Environmental Management's 
(EM) progress in recent years has been its public outreach and 
stakeholder programs. This allows for substantive input into decision-
making, and promotes proactive and systematic complex-wide public 
involvement. EM has a long history of working with a variety of 
intergovernmental groups (i.e., Energy Communities Alliance, 
Environmental Council of the States, National Association of Attorneys 
General, National Governors Association, and the State and Tribal 
Government Working Group) as well as with EM's Site-Specific Advisory 
Boards. The End States initiative is just one of many issues, including 
waste disposition, long-term stewardship, and natural resource damage 
assessments, that DOE and EM are working on with their various 
stakeholders.
    The National Academy of Sciences' study was rightly critical of the 
lack of appropriate involvement by the public in the early stages of 
the EM End States (formerly the Risk-Based End States) initiative. 
However, beginning with the End States Workshop held in Chicago, 
Illinois, in October 2004, EM has increased stakeholder and regulator 
interactions. As a result of the Chicago workshop, EM formed an End 
States Working Group with representatives from the National Governors 
Association, the U.S. Environmental Protection Agency (EPA), State and 
Tribal governments, and environmental interest groups. The Working 
Group advises EM on the conduct of our End States initiative at the 
national level. At the site level, Field Office managers are providing 
additional time for meaningful stakeholder input into their End States 
Vision documents. In addition, Field Office managers have been 
instructed to ``involve stakeholders in a straightforward and frank 
manner . . . ''. EM has reinforced that the End States Vision documents 
are not final decisions on cleanup plans, but are instead a vehicle for 
discussions with our stakeholders and regulators on potential 
alternatives to the current cleanup plans. Through these efforts, EM is 
taking the time at the site and national levels to involve our 
stakeholders and regulators in the End States process.
   transfer of cleanup from environmental management to the national 
                    nuclear security administration
    Question. The President's budget provides for the transfer of 
cleanup responsibility from the Department of Energy's Office of 
Environmental Management to the NNSA at several NNSA sites. This 
transfer of authority promises to deliver savings as a result of 
improved efficiency and intends to be more consistent with the NNSA 
Act. While I appreciate the fact that NNSA site managers will no longer 
be required to report to both the NNSA and EM regarding cleanup 
activities, I am concerned that EM will not remain a top priority 
within NNSA. What guarantee do we have that NNSA will approach cleanup 
as effectively as EM has in reducing the time and cost of cleanup of 
DoE sites across the complex?
    Answer. This proposal resolves conflicts emanating from the NNSA 
statute, which precludes any non-NNSA official other than the Secretary 
and Deputy Secretary from directing NNSA personnel. In addition, the 
NNSA accepts responsibility for environmental work at NNSA sites, and 
will make every effort to conduct cleanup as effectively as EM has in 
reducing the time and cost of cleanup of DOE sites across the complex. 
The functional transfer of environmental scope, funding and the 
associated Federal personnel from the Office of Environmental 
Management (EM) to the NNSA aligns responsibility with accountability, 
ensures clear accounting of the total cost of ownership, and improves 
overall effectiveness and efficiency. The transfers resolve existing 
inefficiencies caused by the duplicate EM/NNSA chain of command. The 
NNSA has established the organizational and operational framework 
needed to ensure that cleanup activities at NNSA sites will continue to 
be accomplished effectively and efficiently once the transfers are 
approved by Congress. The cleanup processes and approaches that have 
worked so well in EM, along with the EM field staff who are currently 
executing this at NNSA sites, will be integrated into the NNSA. As with 
EM, the NNSA's corporate approach to environmental cleanup at NNSA 
sites will focus on risk reduction and compliance, pursue accelerated 
cleanup, and involve stakeholders. NNSA will use their successful 
Facilities and Infrastructure Recapitalization Program (FIRP) as the 
business model for managing their new environmental responsibilities. 
This includes strong central management and accountability for results; 
best-in-class business practices; and transparency in budget and 
program performance.
    Question. The NNSA has major responsibilities of maintaining our 
nuclear deterrent, supporting the Naval Reactor program and stopping 
proliferation of nuclear material. Do you believe NNSA will be able to 
achieve the same level of success that EM has achieved in cleaning up 
80 DOE sites?
    Answer. Yes. The decision to transfer cleanup responsibilities at 
NNSA sites to the NNSA is the culmination of 2 years of effort within 
the Department. After careful consideration, the Department concluded 
that the conduct of cleanup work at NNSA sites is most effectively 
accomplished by NNSA personnel, who can integrate all operational 
requirements at NNSA sites to ensure that the NNSA Stockpile 
Stewardship mission, as well as the environmental cleanup 
responsibilities (which are inextricably intertwined at many NNSA 
sites), are successfully and most efficiently accomplished and resolve 
operational and priority conflicts between program mission and cleanup 
mission.
    Key underpinnings of the environmental transfers are that the 
cleanup strategies, processes, and approaches that worked successfully 
in EM will be incorporated into the NNSA. The NNSA's environmental 
performance strategy will continue to focus on risk reduction and 
compliance, accelerated cleanup, and stakeholder involvement. The EM 
field staff currently conducting NNSA environmental activities will 
directly transfer to the NNSA, thereby maintaining the same level of 
technical expertise. The NNSA intends to manage its new environmental 
responsibilities using approaches proven to be effective in the 
Facilities and Infrastructure Recapitalization Program (FIRP) to 
include strong central management with accountability for results; 
focus on best business practices; and transparent budgets and program 
performance. The NNSA and EM are working corporately to ensure a 
seamless transfer of environmental responsibilities from EM to the 
NNSA.
    Question. The budget provides over $696 million over the next 5 
years to support NNSA-led cleanups. Does this budget provide sufficient 
funding to support these cleanup activities within NNSA and not divert 
scarce resources from science or nonproliferation activities?
    Answer. Yes. This budget provides sufficient funding to support 
these cleanup activities within the NNSA and will not divert scarce 
resources from science or nonproliferation activities. The 
environmental transfers represent a zero sum budget transfer, fully 
resourced, from EM to the NNSA that provides sufficient funding and 
full time equivalent (FTE) positions to accomplish environmental 
cleanup activities at NNSA sites. The NNSA intends to manage its new 
environmental cleanup activities and funding entirely separate from 
other programs in the NNSA budget.
    los alamos national laboratory cleanup stays with environmental 
                    management for fiscal year 2006
    Question. The President's budget proposes moving the cleanup 
responsibilities at six NNSA sites from the Office of Environmental 
Management to the NNSA. Two sites were not included in that transfer--
Los Alamos and Y-12. Why didn't the NNSA accept cleanup responsibility 
for Los Alamos and Y-12 this year? Will these facilities be transferred 
eventually?
    Answer. The Department is taking a measured approach to this 
transfer to ensure that environmental responsibilities at NNSA sites 
are fully accounted for in the budget transfer requests.
    The NNSA and EM agreed to defer the transfer of cleanup 
responsibilities for Los Alamos until after the Department of Energy 
and State of New Mexico finalize an important and complex Consent Order 
for Los Alamos National Laboratory. The Order was signed in March 2005. 
EM and NNSA are jointly reviewing all aspects of the Los Alamos 
environmental activities to ensure there is a clear understanding and 
agreement on the scope and attendant funding requirements of 
environmental responsibilities at LANL. Because of these issues, the 
Department will consider the transfer of Los Alamos environmental 
activities to the NNSA in fiscal year 2007.
    The NNSA and EM agreed to postpone the transfer of Y-12 National 
Security Complex environmental restoration projects to coordinate it 
with the transition of contracting arrangements for environmental 
services at Oak Ridge. The Department plans to transfer environmental 
activities at Y-12 in future years.
            office of civilian radioactive waste management
                       opening of yucca mountain
    Question. Originally, the Department was to open Yucca Mountain in 
1998 to receive spent fuel from the Nation's utilities. Obviously that 
schedule has slipped. Last year, the President's budget proposed that 
the Department would submit the license application to the NRC at the 
end of 2004. Now, we understand that date has been delayed until 
December 2005--a delay of 1 year. Dr. Margaret Chu, the outgoing 
Director of the Office of Civilian Radioactive Waste Management was 
recently quoted in the press as saying that 2012 was now an optimistic 
forecast for initial operations at Yucca Mountain.
    When do you believe Yucca Mountain will begin to receive spent 
nuclear fuel if the license application is submitted to the NRC in 
December 2005 as proposed in this budget?
    Answer. As the Department indicated in last year's testimony, if 
the program did not receive its full request of $880 million, it would 
be unable to meet the goal of beginning waste acceptance in 2010. As 
you know, the Department did not receive the full funding amount and so 
now we are re-evaluating the program's schedule. The Department's 
efforts in this area are complicated by the Court's remand of the 
10,000-year time period in the Environmental Protection Agency's 
radiation protection standard and by the ongoing need for stable 
funding. When these issues are resolved, the Department will then be in 
a position to establish a better estimate for opening the repository.
    Question. In order to meet your current schedule what level of 
funding needs to be provided to the program for each fiscal year 
beginning in fiscal year 2006 until facility construction is complete?
    Answer. The Department has developed two 10-year funding profiles 
that are only preliminary planning estimates. These funding profiles 
are intended to be used only for purposes of illustrating the possible 
funding levels associated with a 2012 or 2015 date for the start of 
repository operations. These profiles are based on several critical 
assumptions, including predictable and adequate program funding, the 
EPA radiation protection standard being in place by December 2005, and 
the start of construction of various non-nuclear items, such as the 
Nevada rail line before receipt of NRC construction authorization. Some 
of these assumptions will require specific policy decisions that have 
not yet been made, and as such these profiles do not represent 
administration policy.
    A major operational problem is the lack of a regular funding 
profile. When appropriations are significantly below the budget 
request, which happens often, plans are derailed, staff are realigned 
or dismissed, deadlines missed, and costs increased.

                                                                     PRELIMINARY PLANNING ESTIMATES 2012 START OF OPERATIONS
                                                                                    [In thousands of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                  Fiscal      Fiscal      Fiscal      Fiscal      Fiscal      Fiscal      Fiscal                  Fiscal      Fiscal      Fiscal
                                                 Year 2006   Year 2007   Year 2008   Year 2009   Year 2010   Year 2011   Year 2012   Subtotal    Year 2013   Year 2014   Year 2015      Total
                                                  Request     Request     Request     Request     Request     Request     Request                 Request     Request     Request
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Total Program Requirements....................     651,447   1,019,503   1,169,740   1,616,000   1,804,000   1,911,000   1,520,000   9,691,690   1,090,000     850,000     850,000    12,481,690
Funding From:
    Nuclear Waste Fund Fee Income.............     300,000     519,503     619,740     765,000     766,000     767,000     769,000   4,506,243     772,000     620,000     620,000     6,518,243
    Nuclear Waste Fund Corpus.................  ..........  ..........  ..........     301,000     488,000     594,000     201,000   1,584,000      38,000  ..........  ..........     1,622,000
    Defense Nuclear Waste.....................     351,447     500,000     550,000     550,000     550,000     550,000     550,000   3,601,447     280,000     230,000     230,000     4,341,447
                                               -------------------------------------------------------------------------------------------------------------------------------------------------
      Total Funding...........................     651,447   1,019,503   1,169,740   1,616,000   1,804,000   1,911,000   1,520,000   9,691,690   1,090,000     850,000     850,000    12,481,690
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                     PRELIMINARY PLANNING ESTIMATES 2015 START OF OPERATIONS
                                                                                    [In thousands of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                    2006         2007         2008         2009         2010         2011         2012         2013         2014         2015          Total
                                                  Request      Request      Request      Request      Request      Request      Request      Request      Request      Request
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Total Program Requirements....................      651,447    1,019,503    1,169,740    1,391,000    1,404,000    1,711,000    1,695,000    1,365,000    1,175,000    1,060,000      12,641,690
Funding From:
    Nuclear Waste Fund Fee Income.............      300,000      519,503      619,740      765,000      766,000      767,000      769,000      772,000      774,000      778,000       6,830,243
    Nuclear Waste Fund Corpus.................  ...........  ...........  ...........       76,000       88,000      394,000      376,000      313,000      171,000       52,000       1,470,000
    Defense Nuclear Waste.....................      351,447      500,000      550,000      550,000      550,000      550,000      550,000      280,000      230,000      230,000       4,341,447
                                               -------------------------------------------------------------------------------------------------------------------------------------------------
      Total Funding...........................      651,447    1,019,503    1,169,740    1,391,000    1,404,000    1,711,000    1,695,000    1,365,000    1,175,000    1,060,000      12,641,690
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                     epa and the radiation standard
    Question. Last summer, the radiation standard for the project was 
vacated by a ruling from the U.S. Court of Appeals in NEI v. EPA. It 
has been rumored the EPA is preparing a draft regulation to be 
available by mid-2005. What impact will this Court decision have on the 
project if EPA fails to develop a new regulation setting the radiation 
standard?
    Answer. The license application will be delayed further.
    Question. Are you aware of any discussions within the 
administration to ensure a radiation standard is in place in order to 
support DOE's license application to the NRC?
    Answer. It is my understanding that the administration is fully 
committed to the issuance of a revised EPA standard as soon as 
practicable.
                        license support network
    Question. The NRC has indicated they will not docket a license 
application until 6 months after certification of the License Support 
Network, a web-based data collection of all relevant documents for the 
application. What is the status of your work to address the 
shortcomings NRC identified in your earlier license support network 
submission?
    Answer. Since the NRC ruling, the Department has focused on three 
key activities--processing legacy e-mails, identifying additional 
documents that may be relevant to the licensing proceedings, and 
reviewing relevant documents for privileges. The Department has made 
substantial progress in its efforts to complete the work necessary for 
certification of the Licensing Support Network.
    Question. When do you anticipate it will be certified?
    Answer. The Department's objective is to be prepared to certify its 
document collection by this summer.
    Question. Are you confident that you can meet this target?
    Answer. The certification process has proven more time-consuming 
than originally envisioned. We are working diligently toward our goal 
of certifying this summer.
                          license application
    Question. The Department now plans to submit a license application 
to NRC late in 2005 for the construction of the repository, a year 
later than the schedule you provided to us by DOE last year. What 
specific activities will you be undertaking this year on the license 
application at DOE headquarters and will these activities facilitate an 
expeditious review of the application by NRC?
    Answer. We are making improvements to the analysis and presentation 
of information in the draft license application to meet our objective 
of completing preparation of a high quality license application. These 
improvements to the document will facilitate the NRC's review by making 
our analyses more robust and straightforward. We also continue to 
interact with NRC staff in meetings open to the public in the form of 
technical exchanges and management meetings to inform the NRC on the 
status of our technical activities and our plans.
    Question. What milestones are scheduled to complete overall for the 
project this year?
    Answer. Our foremost milestone is to complete the license 
application by December of this year and have it ready to submit to the 
NRC.
                             transportation
    Question. The increase in the request over fiscal year 2005 
appropriations is primarily focused in the transportation arena, an 
aspect of the program that has been repeatedly deferred when 
appropriations were reduced from budget requests. Please provide a 
description of the specific transportation activities included in the 
budget request.
    Answer. We have requested funding appropriate for the activities we 
can reasonably accomplish in fiscal year 2006. Within the request of 
$651 million, funding is provided for transportation infrastructure 
development activities, including design and long-lead procurement for 
the Nevada rail line; design, certification and procurement of 
transportation casks and rolling stock; completion of the rail 
alignment final Environmental Impact Statement (EIS); issuance of a 
record of decision; and expansion of institutional outreach.
    Question. If funding is not provided for these activities, would 
this impact initial operation of the repository?
    Answer. As waste acceptance at the repository depends on our 
ability to transport it there safely and securely, full funding of our 
transportation activities is critical. Not funding these activities 
would adversely impact the initial operation of the repository.
    Question. What transportation related challenges still face this 
project?
    Answer. The following challenges still face the project: (1) An EIS 
on rail alignment has to be completed, and a final alignment selected. 
(2) The selected alignment needs protection through establishment of a 
permanent withdrawal or establishment of a right-of-way. (3) New cask 
designs and certificates of compliance from the Nuclear Regulatory 
Commission are needed to ship the majority of the contents destined for 
disposal at the repository. (4) Rail cars have to be designed and 
tested to meet new railroad standards for shipment of spent nuclear 
fuel. In addition, the Department is actively working with stakeholders 
to develop transportation routes and to establish the process for 
funding emergency preparedness training.
    None of these challenges is dependent on new technology, but they 
all require funding to be completed successfully. Additionally, the 
State of Nevada's legal case challenging the transportation mode and 
rail corridor records of decision or any additional lawsuits could 
cause delays.
    Question. What opportunities could the State of Nevada interfere 
with various permits or rights of way that may delay the Yucca Project 
even further?
    Answer. DOE will need several permits from the State of Nevada 
under the Clean Air Act and the Clean Water Act. DOE also will need 
land use permits, approval of road construction projects, and 
appropriation of water for use at the project. We are hopeful that the 
State will proceed in a fair and expeditious manner to grant the 
required permits, although the State Engineer has already denied the 
project's water use permit. This denial is in litigation.
                          technical challenges
    Question. The budget justification for Yucca Mountain and 
supporting documentation identified a number of regulatory and legal 
risks that may further jeopardize the timely completion of the Yucca 
Mountain project, but there was no mention of any technical risks. Are 
you aware of any technical, geologic or other scientific reasons that 
might prevent the placement of spent nuclear fuel or high level waste 
at Yucca Mountain?
    Answer. No. We have confidence that we have addressed the 
technical, geological, and other scientific matters that are relevant 
to the placement of spent fuel and high-level radioactive waste at 
Yucca Mountain. The NRC will ultimately decide through the licensing 
process, with full public participation, whether our efforts are 
sufficient to justify issuance of a license to construct and operate a 
repository at Yucca Mountain.
                      fees paid for yucca mountain
    Question. The Department has not provided a Total Systems Life 
Cycle Cost Analysis for the program since May 2001. This analysis is 
required to determine the adequacy of the fees paid into the Nuclear 
Waste Fund and the appropriate mix of civilian and defense funding 
sources. Is the Department currently conducting an updated Total System 
Life Cycle Cost Analysis, and if not why not?
    Answer. Although a complete program analysis has not been conducted 
since 2001, the Department has updated portions of the life cycle cost 
estimate to support planning and budget developments. We expect to 
undertake a comprehensive, bottom-up cost analysis following submission 
of the license application to the NRC. Additionally, in accordance with 
the Nuclear Waste Policy Act, the Department annually assesses the 
adequacy of the fee under a variety of economic, cost-sharing, and life 
cycle costs scenarios.
    Question. The budget proposed that the fees should be tied to the 
annual appropriation to ensure that the fees paid by ratepayers not 
exceed what has been appropriated. Will the administration propose 
legislation to enact this change? What impact will this have on the 
budget?
    Answer. The administration supports legislation to enact the 2005 
Budget proposal to reclassify receipts as discretionary offsetting 
collections. Although Congress did not adopt that language last year, 
the administration remains interested in pursuing such a proposal and 
intends to have further discussions with the Congress on these issues 
in the hope of reaching some agreement on reclassifying receipts in a 
budget-neutral manner.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                   office of environmental management
                          hanford cleanup cuts
    Question. Mr. Golan, it appears Hanford makes up over 50 percent of 
the cut facing the entire Environmental Management program. Hanford's 
proposed cut is around 13 percent while the proposed cuts for other 
large, ongoing DOE cleanup projects range from 1 percent to 6 percent. 
Based on these numbers, it appears that Hanford is taking a 
disproportionate share of these cuts in the DOE cleanup budget request. 
Why does Hanford take this large budget reduction when it is the most 
contaminated site in DOE's complex, and why is Hanford's cut so large 
in comparison to these other sites?
    Answer. The fiscal year 2006 budget supports the Department's needs 
in meeting its commitments at Hanford. In fiscal year 2006, the 
Department is requesting more than $1.8 billion for cleanup work at 
Hanford, a figure representing over 27 percent of the entire EM budget 
and 20 percent more than the fiscal year 2001 funding.
    For the past few years, the administration has requested and 
received funding increases to address its urgent risks sooner and to 
accelerate cleanup. We committed that if we could eliminate those 
urgent risks, then starting in fiscal year 2006, we would request a 
declining level of funding to complete our work. The fiscal year 2006 
budget represents the next stage in our strategy.
    Hanford's fiscal year 2006 budget request accounts for this 
completion of work, and is commensurate with seismic, legal, and 
programmatic uncertainties. Examples of major risk reduction at Hanford 
include completion of removal of spent nuclear fuel from the K-Basins, 
completion of nuclear material and residue stabilization project, and 
removal of all pumpable liquids from older-style single shell tanks.
    The budget request for Waste Treatment Plant (WTP) construction is 
$59 million less than the fiscal year 2005 comparable appropriations 
due to recently discovered seismic uncertainties. A detailed analysis 
of the impacts associated with the change in seismic criteria is 
underway. The analysis will allow DOE to decide how to proceed with the 
completion of the WTP. There are also several legal uncertainties which 
impact the Department's ability to close waste tanks. The associated 
fiscal year 2006 request to account for these uncertainties is $70 
million less than the fiscal year 2005 comparable appropriations 
budget. There are uncertainties associated with retrieval and disposal 
of tank waste that the Department believes may be transuranic waste. 
These uncertainties account for a fiscal year 2006 request that is $20 
million less than the fiscal year 2005 comparable appropriations 
budget.
    Question. Mr. Golan, the Department of Energy seems to contend this 
budget cut will not result in missing legally enforceable cleanup 
milestones in fiscal year 2006 and beyond. How is it that these cuts 
will not delay cleanup completion and increase life cycle costs?
    Answer. This budget supports the Department's needs in fiscal year 
2006 for implementing the accelerated risk reduction and cleanup 
completion at our sites and meeting enforceable milestones. As noted in 
our budget justifications, fiscal year 2006 represents the first year 
of a declining budget request from our ``peak year'' of fiscal year 
2005, an expected outcome brought about by accelerating risk reduction 
and cleanup completion. For the past few years, the administration has 
requested and received more funding for the Environmental Management 
program to accelerate cleanup and reduce risk. The strategy was to 
invest these additional resources to accelerate cleanup and complete 
work sooner, reform the acquisition strategy to compete more work and 
place incentives on cleanup completion, and work with regulators to 
develop more effective cleanup approaches, resulting in cost savings in 
the longer term. This is being accomplished at Hanford and regulatory 
milestones are expected to be met with this budget request. However, 
the Hanford cleanup program has significant technical and legal/
regulatory challenges that are resulting in uncertainties. Thus, in 
fiscal year 2006, some projects will be slowed due to such 
uncertainties, and our budget reflects them accordingly. Our Hanford 
staff is continuously reviewing its strategies and technologies for 
optimization, such as tank retrieval and waste loading at the Waste 
Treatment Plant. Because of these efforts, it is premature to assume 
there will be a delay or cost increase.
                      hanford workforce reductions
    Question. Mr. Golan, as I'm sure you'll acknowledge, the reduction 
in funding being proposed by the administration for Hanford will mean 
significant workforce reductions there. I understand the estimate is 
that the proposed cuts will mean layoffs of between 1,500 and 2,000 
workers across the site. That means the layoff process will have to 
begin in August and September in order not to further magnify the 
impacts in fiscal year 2006. Is this correct?
    Answer. Workforce reductions are always a possibility at Hanford as 
projects are completed and the skills mix for the remaining work scope 
is reprioritized. DOE and its contractors continue to identify and 
manage work scope, schedule, and cost.
    DOE has currently approved workforce reductions for Fluor Hanford, 
Inc., (FHI) for up to 1,000 contractor employees, with 600 employees to 
be separated by September 30, 2005. The remaining 400 employees are 
planned to be separated no later than September 30, 2006.
    Additionally in fiscal year 2005, DOE approved a previous workforce 
reduction request from FHI which resulted in a reduction of 154 
contractor employees. The 154 reductions consisted of 148 FHI employees 
who were separated by April 29, 2005, and six Bechtel Hanford, Inc., 
employees who were separated by June 3, 2005.
    These reductions are attributable to planned clean up progress and 
reprioritization of fiscal year 2006 work scope and the projected 
skills mix needs for the balance of the contract.
                     hanford tanks waste treatment
    Question. Mr. Golan, all of us in the Pacific Northwest delegation 
applauded your efforts to complete the removal of the liquids from the 
single shell tanks, but there are still millions of gallons of sludge 
and solids that must be removed. Now we're looking at delays in 
completion of the waste treatment plant, which means that if you stay 
on schedule for tank farm retrieval operations, the existing double-
shell tanks are going to fill up long before you have the treatment 
plant in operation. Do you still plan to meet your commitment to empty 
the single shell tanks by 2018? And if so, aren't you going to have to 
build more double-shell tanks to receive the remaining wastes?
    Answer. We continue to take the steps that are necessary and 
prudent to meet our Tri-Party Agreement (TPA) commitments, including 
emptying the single-shell tanks by 2018. In the Hanford Performance 
Management Plan (August 2002), DOE's analyses indicated that in order 
to meet the TPA requirement to complete tank waste treatment by 2028, 
several changes in our approaches were required to enable waste to be 
retrieved and treated sooner. One of the recommended changes is to 
evaluate the use of supplemental treatment techniques for low-activity 
waste (LAW).
    Bulk vitrification (BV) is one of the candidate technologies under 
evaluation for the immobilization of LAW from the Hanford tanks. The 
Washington Department of Ecology (Ecology) recently issued a Research, 
Development, and Demonstration permit that enables DOE to test the BV 
technology on approximately 200,000 gallons of low-activity tank waste. 
If the BV technology performs as anticipated based upon laboratory, 
engineering scale, and full-scale tests with surrogate materials, it 
would provide a means to more rapidly treat LAW, which makes up 
approximately 90 percent of the single-shell tank waste volume.
    Some of the LAW requires less pretreatment than the WTP is designed 
to provide. This waste could, therefore, proceed through other 
treatment processes, such as BV, which have minimal need for double-
shell tank space. We do not plan to build any additional double-shell 
tanks to facilitate single-shell tank retrievals. Whereas new double-
shell tanks may offer some advantages relative to facilitating certain 
retrieval actions, those benefits are more than offset by the 
additional contaminated underground tanks that would be created, all of 
which would need to be cleaned and closed at some future date.
                hanford worker health and safety issues
    Question. Mr. Golan, there are many significant worker health and 
safety issues with Hanford cleanup. I know that Secretary Bodman has 
said that safety is his No. 1 priority. What procedures are you putting 
in place to assure that the Department continues to improve its health 
and safety protection for workers at sites such as Hanford?
    Answer. As you have mentioned, safety is the Secretary's No. 1 
priority. Safe working conditions and processes are an essential 
precursor to and an indicator of performing quality work.
    We have established an organizational goal of zero injuries and 
zero accidents. To reach this goal, we have done the following.
  --Weekly and individual calls with the field managers, EM management 
        staff meetings and other interactions with direct reports at 
        Headquarters, and quarterly project reviews with each site that 
        focus on safety and safety management.
  --We have incorporated safety performance as the highest weighted 
        standard in the field managers' performance objectives. This 
        includes a commitment that the field managers and their direct 
        reports overseeing operations and cleanup are in the field, in 
        personal protective equipment where needed, at least 200 hours 
        a year observing first hand work activities with an emphasis on 
        operational safety.
  --We have also directed the use of contracts to define and 
        communicate worker safety and health expectations, and on 
        multiple occasions have used the contract clauses to hold 
        contractors accountable for less than adequate safety 
        performance.
  --We have significantly upgraded accident and injury reporting by 
        requiring all contractors, subcontractors, and vendors, 
        regardless of size, to report their illness and injury 
        statistics to DOE. With these data, we can analyze trends and 
        share lessons learned, which we do on nearly a daily basis 
        among the sites.
  --We are improving Federal oversight by ensuring we have the Federal 
        staff with the right training and qualifications, positioned in 
        the right place at the right time. We have made more resources 
        available for training to qualify our managers and safety 
        professionals who are in the field where the work is being 
        performed.
  --We are instilling the expectation that any worker can question the 
        work activities and has the authority to stop that work if he 
        or she believes safety is compromised. By empowering the worker 
        with the ability to stop work, we are better able to address 
        errors before accidents happen.
    The emphasis we have placed on responsibility, accountability, 
oversight, and technical competence flowing down through the DOE 
manager to the contractors and subcontractors management and most 
importantly to the workers, is the right course of action to improve 
the Department's health and safety record.
                        em procurement decisions
    Question. Mr. Golan, many EM procurement decisions are being 
challenged and some have been overturned. What actions are you taking 
to improve the quality, fairness, timeliness, and success of the EM 
procurement process, specifically for River Corridor and FFTF, which 
have been delayed for many months?
    Answer. The Secretary has ordered a review of the procurement 
process. This review is currently being conducted. We would be happy to 
meet with you after the review is completed and the Secretary has made 
his determination.
                     hanford waste treatment plant
    Question. Mr. Golan, DOE has made a major commitment to the Hanford 
Waste Treatment Plant to separate and vitrify tank waste. The Defense 
Nuclear Facilities Safety Board and others have raised serious 
questions about the safety of the design and prospect for cost 
increases and schedule slippage. Given the supreme importance of this 
project to the future of Hanford cleanup, what do you propose to ensure 
that this facility stays on track? Should there be an independent 
review by nationally recognized technical experts to advise DOE on how 
to address these issues and minimize the impacts to cost and schedule?
    Answer. A detailed analysis of the impacts associated with the 
change in seismic design criteria is underway. The analysis will allow 
DOE to decide how to proceed with the completion of the WTP. To provide 
an independent view, EM has brought in a number of outside experts on 
seismic issues and their effect on facility design and construction, 
including the U.S. Army Corps of Engineers and the Pacific Northwest 
National Laboratory.
   volpentest hazardous materials management and emergency response 
                   training center (hammer) facility
    Question. Mr. Golan, the Volpentest HAMMER Training and Education 
Center at Hanford was built by DOE to ensure the health and safety of 
Hanford cleanup workers and emergency responders. HAMMER's unique 
hands-on ``Training as Real as It Gets'' is essential to the safe, 
cost-effective, and successful completion of Hanford cleanup. Further, 
as the cleanup workforce decreases, more of HAMMER's capabilities will 
become available for other DOE missions, such as energy assurance and 
hydrogen safety, and for training law enforcement, security, emergency 
response, and other homeland security-related personnel. Yet, funds 
were eliminated again from the budget for HAMMER.
    After being proposed by DOE and authorized by Congress, for the 
past several years DOE has failed to request the funding needed to 
operate HAMMER. Why do you force Congress year after year to direct you 
to fund this facility that is essential to achieving your mission of 
safe accelerated cleanup at Hanford?
    Answer. The Volpentest Hazardous Materials Management and Emergency 
Response Training Center (HAMMER) facility continues to play an 
important role in Hanford cleanup, training our workers to safely 
perform their roles in their cleanup activities. We continue to include 
the costs for HAMMER in our baseline Hanford budget, distributing the 
costs to each of the EM programs that use the HAMMER facility for their 
workers. HAMMER was established to ultimately be self-sustaining. Thus, 
as EM cleanup is accomplished and the workforce decreases, the non-
Hanford work at HAMMER should grow. This will allow HAMMER to continue 
to provide its unique facilities to other national priorities, such as 
energy assurance, hydrogen safety, emergency response, and other 
homeland security-related training.
    Question. Mr. Golan, what are you going to do to ensure that DOE 
continues to fully utilize HAMMER to protect the safety and health of 
Hanford cleanup workers? Will you support the development of new DOE 
training missions at HAMMER? Will you actively work with the Department 
of Homeland Security and other agencies to develop, expand, and support 
other training missions at HAMMER?
    Answer. DOE continues to use the Volpentest Hazardous Materials 
Management and Emergency Response Training Center (HAMMER) to provide 
hands-on safety training for workers involved in the Hanford cleanup 
mission and considers HAMMER's role in Hanford's safe operation to be 
vital.
    The HAMMER facility remains available for use by other DOE entities 
and other agencies on a full cost recovery basis. By covering the costs 
of maintaining HAMMER, EM is, in fact, making excess capacity at HAMMER 
available for use by others. HAMMER was established to ultimately be 
self-sustaining. We continue to encourage the development of new 
missions at HAMMER to offset the impacts of a declining EM workforce in 
the future. EM will cooperate with the Department of Homeland Security 
(DHS) to develop a strategy and a cooperative agreement to ensure that 
HAMMER remains available to meet their growing training needs. We want 
to ensure that HAMMER, as a national asset, continues to serve this 
country's needs now and in the future, beyond the cleanup mission.
    HAMMER is already involved in the training of fire, law 
enforcement, Customs and Border Protection, security, emergency 
medical, and other emergency response personnel for a wide-spectrum of 
regional and Federal agencies on a full cost recovery basis. A strong 
partnership has been forged between HAMMER and the Pacific Northwest 
National Laboratory to use HAMMER as a test bed to deploy new field 
technologies for homeland security personnel. Sharing HAMMER with DHS 
would maximize the investment of Federal funds spent so far to build 
and develop HAMMER.
                        em contractor workforce
    Question. Mr. Golan, what has DOE done to ensure that all cleanup 
work scheduled for the current fiscal year (fiscal year 2005) is not 
impacted by the costs associated with funding reductions and layoffs 
for fiscal year 2006?
    Answer. The Office of Environmental Management (EM) uses a 
combination of contractor workforce restructuring strategies that most 
effectively accomplish a site's mission objectives. The primary 
objective is to retain employees with the skills, knowledge and 
abilities necessary to effectively and safely meet assigned and future 
missions. Restructuring strategies are closely integrated with planning 
based on identified work requirements. Both short-term requirements for 
immediate tasks, as well as long-term requirements for skills based on 
missions identified in the sites' strategic plans are considered. 
Improvements in organization and operations efficiency are also 
considered, including changes in internal organizational structure and 
contracting mechanisms, as well as contractual provisions, collective-
bargaining agreements, and other legal obligations.
    Cleanup work for fiscal year 2005 is being completed as scheduled. 
Timing of workforce reductions is driven primarily by the completion of 
work consistent with the pace of the program's cleanup progress. The 
fiscal year 2006 budget request reflects the fact that cleanup is 
progressing as projects are completed. Contractors continue to identify 
and manage work scope, schedule, and cost, and plan their workforce 
needs accordingly with anticipated funding. Additional workforce 
reductions may occur throughout fiscal year 2005, regardless of the 
fiscal year 2006 budget. As these additional reductions become 
necessary, timely congressional notification will be provided.

                  ADEQUATE FUNDING FOR YUCCA MOUNTAIN

    Senator Domenici. Let me just ask, did you say in your 
testimony that the amount requested by the administration, that 
it is your position that that is satisfactory for this year?
    Mr. Garrish. Six hundred fifty-one million dollars is 
satisfactory to complete the activities that we can reasonably 
accomplish in fiscal year 2006.
    Senator Domenici. Okay. Since we are discussing such large 
amounts of money for the clean-up of the sites, I just want for 
the record to make a statement that I think perhaps in a couple 
years people will understand what this means, but we've been 
spending billions and billions of dollars in clean-up and all 
of that's been done on the basis that the current standard for 
impact on human health from low-level radiation exposure is 
accurate. And it's a very old standard and it's linear in 
nature, and I'm just going to state in the record, wouldn't we 
be shocked to learn maybe 10 years from now that that standard 
is wrong and has been wrong all along, and that that dosage is 
far too low in terms of the relationship to human safety. 
Incidentally, there is a major study going on right now, it's 
in its fifth year, by the National Academy and great scientists 
who are looking at that.

                          SUBCOMMITTEE RECESS

    I am convinced, and I just want to state this in the 
record, that they will conclude that it is not right, and that 
will say that--will indicate that over the years perhaps we 
have spent untold amounts of money trying to save ourselves 
from something that wasn't harmful to begin with. That 
doesn't--you can't do anything about that. You've got to keep 
on doing that.
    Having said that, we are recessed.
    [Whereupon, at 10:33 a.m., Tuesday, March 10, the hearing 
was recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
